Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 1 of 90

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-80542-Civ-ROSENBERG
MAGISTRATE JUDGE P.A. WHITE
ANTON E. TUOMI,
Petitioner,
REPORT OF
MAGISTRATE JUDGE

v.
JULIE JONES,
Respondents.
/
I.

Introduction

Anton E. Tuomi, a state prisoner, has filed this pro se
petition for writ of habeas corpus, pursuant to 28 U.S.C. §2254,
challenging the constitutionality of his conviction for aggravated
battery entered following a jury verdict in Palm Beach County
Circuit Court, case no. 2009CF015311AMB.
This

Cause

has

been

referred

to

the

undersigned

for

consideration and report pursuant to 28 U.S.C. §636(b)(1)(B) and
Rules 8 and 10 of the Rules Governing Section 2254 Cases in the
United States District Courts.
For its consideration of the petition (DE#1) with supporting
memorandum (DE#4) and appendix (DE#13), the court has the state's
response to this court's order to show cause with supporting
appendix

(DE#11),

pleadings,

containing

including

copies

copies
of

of

the

relevant
trial

and

state

court

sentencing

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 2 of 90

transcripts,1 and the petitioner's traverse (DE#15).
II. Claims
Because the petitioner is pro se, he has been afforded liberal
construction under Haines v. Kerner, 404 U.S. 419 (1972). As can
best be discerned, the petitioner raises the following twelve
grounds for relief:
1.

The trial court did not have subject
matter
jurisdiction
to
grant
the
petitioner's second motion to withdraw
guilty plea, filed through counsel,
because the petitioner had filed a notice
of appeal following the initial denial of
his
first
pro
se
motion,
thereby
divesting the court of jurisdiction.
(DE#1:6; DE#4:1).

2.

He was denied the right to appointment of
conflict free counsel to assist him in
preparing and filing a proper motion to
withdraw
his
guilty
plea.
(DE#1:8;
DE#4:4).

3.

His constitutional rights were violated
when the trial court failed to conduct an
adequate Faretta2 hearing. (DE#1:10;
DE#4:12).

4.

The prosecution failed to provide the
defense with the medical records of the
victim diagnosing the severity or lack
there of the victim's injuries, in
violation of Brady v. Maryland, 373 U.S.
83 (1963). (DE#1:12; DE#4:15).

1
The letter ?T” in this Report, followed by a page number, refers to the
trial transcripts filed by the respondent. The transcripts are part of the
Appendix, docketed on CM/ECF at DE#11-2:Ex.25.
2
Faretta v. California, 422 U.S. 806, 835, 95 S.Ct. 2525, 2541, 45 L.Ed.2d
562 (1975).

2

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 3 of 90

5.

The trial court's comment to the jury
that the petitioner chose not to testify
on his own behalf violated petitioner's
constitutional
rights.
(DE#1:13;
DE#4:17).

6.

The prosecution engaged in prosecutorial
misconduct during closing argument by
commenting on petitioner's failure to
testify on his own behalf at trial.
(DE#1:15; DE#4:19).

7.

He was denied effective assistance of
counsel, where his lawyer failed to
assist the petitioner in preparing a
motion for new trial. (DE#1:16; DE#4:20).

8.

His due process rights were violated when
the court denied petitioner's motion for
new trial without a hearing or without
providing petitioner the assistance of
counsel. (DE#1:18; DE#4:22).

9.

The trial court erred in denying defense
counsel's motion to withdraw after it was
previously established that a conflict
pre-existed prior to Jenny Lancaster
being
appointed
to
represent
the
petitioner
at
sentencing.
(DE#1:19;
DE#4:24).

10.

There
was
insufficient
evidence
to
support
petitioner's
conviction
for
aggravated battery. (DE#1:20; DE#4:25).

11.

He was denied effective assistance of
appellate counsel, where his lawyer
failed to assign as error on appeal the
trial court's error in failing to appoint
conflict free counsel to represent the
petitioner at a critical stage of the
proceeding. (DE#1:22; DE#4:28).

12.

He was denied effective assistance of
appellate counsel, where his lawyer
failed to assign as error on appeal the
trial
court's
error
in
permitting
petitioner to proceed pro se without
3

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 4 of 90

conducting an adequate Faretta inquiry
prior to vacating petitioner's plea and
setting the case for trial. (DE#1:23;
DE#4:33).
III.

Procedural History

Petitioner was charged by Amended Information with felony
battery, in violation of Fla.Stat. §784.03(1) and (2) (Count 1),
and criminal mischief, less than $200.00, in violation of Fla.Stat.
§806.13(1)(a) and (b)1 (Count 2). (DE#11-2:Ex.2:6-7).3 Petitioner
then entered into a negotiated plea, agreeing to plead guilty as
charged, in exchange for a maximum term of 24 months imprisonment,
and restitution to the victim. (DE#11-2:Exs.4-5). A corrected
judgment was entered on June 24, 2010, nunc pro tunc to June 1,
2010. (DE#11-2:Ex.5:13-14).
A motion to withdraw the guilty plea was filed by defense
counsel

on

petitioner's

behalf,

on

grounds

that

counsel

was

ineffective for advising petitioner to enter a plea that was
predicated on an incorrect sentencing score sheet. (DE#11-2:Ex.6).
While that motion was pending, petitioner, filed a pro se motion to
withdraw his guilty plea on similar grounds. (DE#11-2:Ex.7). The
pro se motion was denied by written order entered on July 9, 2010,
finding in pertinent part, as follows:
The Defendant was charged with Felony
Battery. The allegations were that Mr. Tuomi
beat Ms. Black with his closed fists causing
lacerations to the eye and much bleeding. Her

3
Despite this court's specific instructions regarding the preparation and
filing of the appendix, the court has had to scour through the appendix to find
certain state court pleadings. Herein, the citations to the pleadings are those
reflected by the court's CM/ECF on-line docketing system, as imprinted on the
upper-right hand corner of the filing.

4

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 5 of 90

injuries were observed by a police officer.
There was also a witness, Bonnie Andreozzi,
who saw the beating. Mr. Tuomi had five prior
convictions
for
Battery
(most
of
them
domestic) that resulted in this battery being
charged as a felony. This Defendant understood
he was facing five years in prison and chose
to accept a two year sentence in lieu of
risking the five years. He received the
benefit of the bargain and should not be
allowed to withdraw his plea. The score sheet
is correct. (see attached). Wherefore, it is
ORDERED AND ADJUDGED that the Motion is
denied.

(DE#11-2:Ex.8:24-25). Petitioner filed a pro se notice of appeal
following the denial of his pro se motion to withdraw. (DE#112:Ex.9). On September 23, 2010, the appeal was dismissed for lack
of prosecution. (DE#11-2:Ex.16).
In the interim, while the petitioner's pro se appeal was
pending, a hearing was held on the petitioner's counseled motion to
withdraw his guilty plea. (DE#11-2:Ex.14). At the conclusion of the
hearing, the court set aside the judgment and sentence, granting
the petitioner's request to withdraw his plea. (DE#11-2:Exx.14-15).
After the judgment was vacated, the prosecution filed an
Second Amended Information charging petitioner with aggravated
battery

and

criminal

mischief.

(DE#11-2:Ex.17).

Petitioner

proceeded to trial where he was found guilty of aggravated battery,
as charged in the Second Amended Information, following a jury
verdict. (DE#11-2:Ex.25:T.286-87). Petitioner's motions for new
trial

were

denied

without

a

hearing.

(DE#11-2:Exs.27-31).

Thereafter, the petitioner was adjudicated guilty and sentenced as
a prison releasee reoffender to a 15-year minimum mandatory term of

5

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 6 of 90

imprisonment. (DE#11-2:Ex.32). The court also entered a judgment of
acquittal

as

to

the

criminal

mischief

offense

as

charged

in

Count 2. (DE#11-3:Ex.32:9).
Petitioner prosecuted a direct appeal, raising one claim of
fundamental error arising from the prosecution's and the trial
court's comments during closing argument on petitioner's failure to
testify, which is the essence of claims 5 and 6 of this federal
petition, as listed above. (DE#11-3:35). On October 24, 2012, the
Fourth District Court of Appeal per curiam affirmed the conviction
in a decision without written opinion. See Tuomi v. State, 101
So.3d 853 (Fla. 4 DCA 2012)(table); (DE#11-3:Ex.37). Rehearing was
denied on December 11, 2012. (DE#11-3:Ex.39). The direct appeal
concluded with the issuance of the mandate on December 28, 2012.4
It does not appear that petitioner sought discretionary review
with the Florida Supreme Court. The time for doing so expired, at
the latest, thirty days after denial of rehearing, or no later than
January 10, 2013.5 Since he did not seek discretionary review to
the Florida Supreme Court, he is not entitled to an additional
ninety days to file a petition for a writ of certiorari in the
United States Supreme Court. Gonzalez v. Thaler, ___ U.S. ___, 132
S.Ct. 641, 646 (2012).6 Therefore, at the earliest, his judgment of

4

By separate order, a copy of the state appellate court dockets are being
filed and made part of the record herein.
5
Pursuant to Fla.R.App.P. 9.120(b), a motion to invoke discretionary review
must be filed within 30 days of rendition of the order to be reviewed.
6
In applying the Supreme Court’s Gonzalez opinion to this case, the
petitioner here is not entitled to the 90-day period for seeking certiorari
review with the United States Supreme Court, because after his judgment was
affirmed on direct appeal, petitioner did not attempt to obtain discretionary
review by Florida’s state court of last resort-the Florida Supreme Court, nor did
he seek rehearing with the appellate court. See Gonzalez v. Thaler,
U.S. ___,
132 S.Ct. 641, 653–54, 181 L.Ed.2d 619 (2012)(holding that conviction becomes
final upon expiration of time for seeking direct review); Jimenez v. Quarterman,

6

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 7 of 90

conviction became final on January 10, 2013.

Nevertheless, assuming, without deciding, that petitioner was
entitled

to

seek

review

to

the

U.S.

Supreme

Court,

then

alternatively, his conviction would have become final at the latest
on Monday,7 March 11, 2013,8 when the 90-day period for seeking

555 U.S. 113, 118-21, 129 S.Ct. 681, 685-86, 172 L.Ed.2d 475 (2009)(explaining
the rules for calculating the one-year period under §2244(d)(1)(A)). See also
Clay v. United States, 537 U.S. 522, 527, 123 S.Ct. 1072, 155 L.Ed.2d 88
(2003)(holding that “[f]inality attaches when this Court affirms a conviction on
the merits on direct review or denies a petition for a writ of certiorari, or
when the time for filing a certiorari petition expires.”); Chavers v. Secretary,
Florida Dept. of Corrections, 468 F.3d 1273 (11th Cir. 2006)(holding that
one-year statute of limitations established by AEDPA began to run 90 days after
Florida appellate court affirmed habeas petitioner's conviction, not 90 days
after mandate was issued by that court). In other words, where a state prisoner,
who pursues a direct appeal, but does not pursue discretionary review in the
state’s highest court after the intermediate appellate court affirms his
conviction, the conviction becomes final when time for seeking such discretionary
review in the state’s highest court expires. Gonzalez, __ U.S. ___, 132 S.Ct. 641
(2012).
7

As applied here, under Fed.R.Civ.P. 6(a)(1), “in computing any time period
specified in ... any statute that does not specify a method of computing time ...
[the court must] exclude the day of the event that triggers the period[,] count
every day, including intermediate Saturdays, Sundays, and legal holidays[, and]
include the last day of the period,” unless the last day is a Saturday, Sunday,
or legal holiday. Where the dates fall on a weekend, the Undersigned has excluded
that day from its computation.
8
For purposes of 28 U.S.C. §2244(d)(1)(A), where a state prisoner does not
seek discretionary review in the state’s highest court of the decision of the
intermediate appellate court, the judgment becomes "final" for purposes of
§2244(d)(1)(A) on the date the time for seeking such review expires. Courts were
initially split on when a judgment becomes final in the event the state prisoner
did not seek discretionary review in the state’s highest court of the
intermediate state appellate court’s decision. In Gonzalez v. Thaler, 132 S.Ct.
641 (2012), the U.S. Supreme Court resolved the split in circuits, explaining
that scouring each state’s laws and cases to determine how the state defined
finality would contradict the uniform meaning of "conclusion of direct review"
accepted by the Court in prior cases. The Court further rejected the argument
that the limitations period does not commence running until the expiration of the
90-day period for filing a petition for writ of certiorari, where the petitioner
does not seek review in the state’s highest court. Id. The Supreme Court
explained that it can only review judgments of a "state court of last resort" or
of a lower state court if the "state court of last resort" has denied
discretionary review. See Gonzalez v. Thaler, 132 S.Ct. 641 (2012)(citing
Sup.Ct.R. 13.1 and 28 U.S.C. §1257(a)).

The Eleventh Circuit has yet to revisit the issue since Gonzalez. However,
some courts to have discussed Gonzalez have found it to be distinguishable as

7

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 8 of 90

review expired following the conclusion of his direct appeal. See
Hollinger v. Sec'y, Dep't of Corr's, 334 Fed. Appx. 302 (11th Cir.
2009) (conviction becomes ?final” ninety days after rehearing is
denied on direct appeal); Wainwright v. Sec'y, Dep't of Corr's, 537
F.3d

1282,

1283-84

(11th

Cir.

2007)

(one-year

statute

of

limitations begins running the day after the ninety-day limit for
seeking certiorari expires).
The limitations period ran unchecked for 45 days, from the
time his conviction became final on March 11, 2013 until April 25,
2013,9 when he returned to the state trial court, filing his first
Rule 3.850 motion for post-conviction relief, raising multiple
grounds for relief, including essentially claims 2 through 10 of
this federal petition, as listed above. (DE#11-3:Ex.43). Following
the state's response thereto, by written order entered on September
17, 2014, the trial court summarily denied relief, adopting the

applied to Florida cases, because the Supreme Court of Florida does not have
jurisdiction to review a district court's per curiam decision without written
opinion on direct appeal. See Jackson v. State, 926 So.2d 1262, 1266 (Fla.
2006)(Florida Supreme court holding that it does not have jurisdiction to review
"unelaborated per curiam decisions issued by a district court of appeal."). These
courts have determined that the filing of a petition for writ of discretionary
review with the Supreme Court of Florida would have been futile. In other words,
petitioner’s who convictions are per curiam affirmed without opinion on direct
appeal, need not seek discretionary review with the Florida Supreme Court, since
the intermediate appellate court is the "state court of last resort." Further,
those courts have also granted petitioner’s an additional 90 days from the time
the intermediate appellate court affirmed the judgment or denied rehearing,
representing the time in which Petitioner could have filed a petition for writ
of certiorari with the Supreme Court of the United States, but failed to do so.
See e.g., Flynn v. Tucker, 2012 WL 4863051 (S.D.Fla. 2012)(stating that because
the Florida Supreme Court lacked jurisdiction to review an appeal of the Third
DCA's opinion and such an appeal would have been futile, Petitioner's only other
avenue of review was to file a petition for writ of certiorari with the United
States Supreme Court within ninety days after entry of judgment)(unpublished);
Sierra v. Crews, 2014 WL 1202990 (N.D. Fla. 2014)(unpublished)(same); Gilding v.
Sec’y, Dep’t of Corr’s, 2012 WL 1883745, *2 n.6 (M.D.Fla. 2012)(unpublished)
(same).
9

Where evidence shows the pleading was received by prison authorities for
mailing, under the mailbox rule that date is utilized. In the event no prison
stamp is noted on the filing, absent evidence to the contrary, the petition is
deemed filed on the date executed by the petitioner.

8

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 9 of 90

state's response with attached exhibits, finding the claims raised
by petitioner were conclusively refuted by the record. (DE#113:Ex.45). That denial was subsequent per curiam affirmed by the
Florida Fourth District Court of Appeal in a decision without
written

opinion.

2015)(table);

Tuomi

v.

State,

(DE#11-3:Ex.50).

166

So.3d

Rehearing

was

801

(Fla.

denied,

4

DCA

and

the

proceeding concluded with the issuance of the mandate on July 6,
2015. (DE#11-3:Ex.54).
Before the above proceeding concluded, petitioner next filed
a state petition for writ of habeas corpus with the Florida Fourth
District Court of Appeal, raising multiple grounds for relief,
including claims 11 and 12 of this federal petition, as listed
above. (DE#11-3:Ex.55). The petition was denied by order entered on
March 17, 2015, prior to conclusion of the Rule 3.850 appeal.
(DE#11-3:Ex.56).
It is also worth noting that before conclusion of his Rule
3.850 appeal, the petitioner next filed a state petition seeking to
invoke the Florida Supreme Court's jurisdiction, assigned case no.
SC15-1708. (DE#11-3:Ex.57). The Florida Supreme Court dismissed the
petition for lack of jurisdiction by Order entered on September 18,
2015. (DE#11-3:Ex.58). He filed a second petition with the Florida
Supreme Court, which was also dismissed for lack of jurisdiction by
the Florida Supreme Court on October 29, 2015. (DE#11-3:Exs.59-60).
More

importantly,

both

petitions

were

dismissed

for

lack

of

jurisdiction, citing in pertinent part, Grate v. State, 750 So.2d
625 (Fla. 1999).
Thus, petitioner's attempt to seek review in the Florida
Supreme Court does not serve to toll the federal limitations period
because the Florida Supreme Court does not have jurisdiction over
9

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 10 of 90

per curiam affirmances from Florida's appellate courts. See e.g.,
Bismark v. Sec'y Dep't of Corr's, 171 Fed.Appx. 278, 280 (11th Cir.
2006) (holding that petitioner's unsuccessful attempt to invoke the
discretionary jurisdiction of the Florida Supreme Court to review
the appellate court's per curiam affirmance of the denial of
post-conviction

relief

had

no

tolling

effect

on

the

federal

limitations period, because such relief is not available under
Florida law); see also, Fla. Const. Art. 5, §3; Jackson v. State,
926 So.2d 1262 (Fla. 2006); Stallworth v. Moore, 827 So. 2d 974
(Fla. 2002); Grate v. State, 750 So.2 d 625 (Fla. 1999).
Consequently, the two Florida Supreme Court petitions had no
tolling effect on the one-year federal limitations period because
they were not ?properly filed” within the meaning of §2244(d)(2).
See Artuz v. Bennett, 531 U.S. 4, 121 S.Ct. 361, 148 L.Ed.2d 213
(2000)(wherein the Supreme Court clarified the circumstances under
which a motion is ?properly filed” for purposes of §2244(d)(2)). In
Artuz, the Supreme Court specifically noted that a motion is not
?properly filed,” when that motion is filed in a court that lacks
jurisdiction to hear it. Id., 531 U.S. at 9.
Therefore, the federal limitations period ran untolled for 274
days, from conclusion of the petitioner's Rule 3.850 proceedings on
July 6, 2015, until the petitioner then came to this court, filing
the instant federal habeas corpus petition on April 6, 2016, after
he signed and then handed it to prison authorities for mailing in
accordance with the mailbox rule.10 (DE#1:1). Given the foregoing

10
¡Under the prison mailbox rule, a pro se prisoner's court filing is
deemed filed on the date it is delivered to prison authorities for mailing.¢
Williams v. McNeil, 557 F.3d 1287, 1290 n.2 (11th Cir. 2009); see Fed.R.App.
4(c)(1)(¡If an inmate confined in an institution files a notice of appeal in
either a civil or a criminal case, the notice is timely if it is deposited in the
institution’s internal mail system on or before the last day for filing.¢).
Unless there is evidence to the contrary, like prison logs or other records, a

10

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 11 of 90

detailed procedural history, it appears that a total of 319 days of
the

federal

limitations

period

went

unchecked

from

the

time

petitioner's conviction became final and the filing of the instant
federal habeas proceeding.

IV. Governing Legal Principles

A. Standard of Review under the Antiterrorism and
Effective Death Penalty Act of 1996 (“AEDPA”)
This

federal

habeas

petition

is

governed

by

28

U.S.C.

§2254(d), as amended by the AEDPA. Pursuant to the AEDPA, federal
habeas

relief

may

not

be

granted

with

respect

to

a

claim

adjudicated on the merits in state court unless adjudication of the
claim:
(1) resulted in a decision that was contrary
to, or involved an unreasonable application
of, clearly established Federal law, as
determined by the Supreme Court of the United
States; or
(2) resulted in a decision that was based on
an unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.

28 U.S.C. §2254(d). This standard is both mandatory and difficult
to meet. White v. Woodall, ___ U.S. ____, ___, 134 S.Ct. 1697,
1702, 188 L.Ed.2d 698 (2014); see also, Debruce v. Commissioner,
Alabama Dept. of Corrections, 758 F.3d 1263, 1265-66 (11th Cir.
2014).

The

AEDPA

imposes

a

highly

deferential

standard

for

prisoner’s motion is deemed delivered to prison authorities on the day he signed
it. See Washington v. United States, 243 F.3d 1299, 1301 (11th Cir. 2001); Adams
v. United States, 173 F.3d 1339 (11th Cir. 1999) (prisoner's pleading is deemed
filed when executed and delivered to prison authorities for mailing).

11

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 12 of 90

reviewing the state court rulings on the merits of constitutional
claims raised by a petitioner. A state court's summary rejection of
a claim, even without explanation, qualifies as an adjudication on
the merits which warrants deference. Ferguson v. Culliver, 527 F.3d
1144, 1146 (11th Cir. 2008).
“Clearly established federal law” consists of the governing
legal principles, rather than the dicta, set forth in the decisions
of the United States Supreme Court at the time the state court
issues its decision. White v. Woodall, 134 S.Ct. at 1702; Carey v.
Musladin,

549

U.S.

70,

74,

127

S.Ct.

649,

166

L.Ed.2d

482

(2006)(citing Williams v. Taylor, 529 U.S. 362, 412, 120 S.Ct.
1495, 146 L.Ed.2d 389 (2000)). A decision is “contrary to” clearly
established federal law if the state court either: (1) applied a
rule that contradicts the governing law set forth by Supreme Court
case law; or (2) reached a different result from the Supreme Court
when faced with materially indistinguishable facts. Ward v. Hall,
592 F.3d 1144, 1155 (11th Cir. 2010); Mitchell v. Esparza, 540 U.S.
12, 16, 124 S.Ct. 7, 157 L.Ed.2d 263 (2003).
A state court decision involves an “unreasonable application”
of the Supreme Court's precedents if the state court correctly
identifies the governing legal principle, but applies it to the
facts of the petitioner's case in an objectively unreasonable
manner, Brown v. Payton, 544 U.S. 133, 134, 125 S.Ct. 1432, 161
L.Ed.2d 334 (2005); Bottoson v. Moore, 234 F.3d 526, 531 (11th Cir.
2000); or, “if the state court either unreasonably extends a legal
principle from [Supreme Court] precedent to a new context where it
should not apply or unreasonably refuses to extend that principle
to a new context where it should apply.” Bottoson, 234 F.3d at 531
(quoting Williams, 529 U.S. at 406). The unreasonable application
inquiry

“requires

the

state

court
12

decision

to

be

more

than

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 13 of 90

incorrect

or

erroneous,”

rather,

it

must

be

“objectively

unreasonable.” Lockyer v. Andrade, 538 U.S. 63, 75–77, 123 S.Ct.
1166, 155 L.Ed.2d 144 (2003) (citation omitted); Mitchell, 540 U.S.
at 17–18; Ward, 592 F.3d at 1155. Petitioner must show that the
state court's ruling was “so lacking in justification that there
was an error well understood and comprehended in existing law
beyond any possibility for fairminded disagreement.” White, 134
S.Ct. at 1702 (quoting Harrington v. Richter, 562 U.S. 86, 131
S.Ct. 770, 786–787, 178 L.Ed.2d 624 (2011)).
It is also well settled that the state court is not required
to cite, or even have an awareness of, governing Supreme Court
precedent, “so long as neither the reasoning nor the result of
[its] decision contradicts them.” Early v. Packer, 537 U.S. 3, 8,
123 S.Ct. 362, 154 L.Ed.2d 263 (2002); cf. Harrington, 562 U.S. at
98, 131 S.Ct. at 785 (reconfirming that “§2254(d) does not require
a state court to give reasons before its decision can be deemed to
have been 'adjudicated on the merits'" and entitled to deference);
Mitchell v. Esparza, 540 U.S. 12, 16 (2003)(“[A] state court’s
decision is not ‘contrary to ... clearly established Federal law’
simply because the court did not cite [Supreme Court] opinions....
[A]

state

court

need

not

even

be

aware

of

[Supreme

Court]

precedents, ‘so long as neither the reasoning nor the result of the
state-court decision contradicts them.’”)(quoting Early v. Packer,
537 U.S. at 7-8).
Thus, state court decisions are afforded a strong presumption
of deference even when the state court adjudicates a petitioner's
claim summarily—without

an

accompanying

statement

of

reasons.

Harrington, 562 U.S. at 91-99, 131 S.Ct. at 780-84 (concluding that
the summary nature of a state court's decision does not lessen the
deference that it is due); Gill v. Mecusker, 633 F.3d 1272, 1288
13

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 14 of 90

(11th Cir. 2011)(acknowledging the well-settled principle that
summary affirmances are presumed adjudicated on the merits and
warrant deference, citing Harrington, 562 U.S. at 98-99, 131 S.Ct.
at 784-85 and Wright v. Sec'y for the Dep't of Corr., 278 F.3d
1245, 1254 (11th Cir. 2002)). See also Renico v. Lett, 559 U.S.
766, 773, 130 S.Ct. 1855, 1862, 176 L.Ed.2d 678 (2010)(“AEDPA ...
imposes a highly deferential standard for evaluating state-court
rulings ... and demands that state-court decisions be given the
benefit of the doubt.”)(citations and internal quotation marks
omitted).
The Supreme Court has also stated that “a decision adjudicated
on the merits in a state court and based on a factual determination
will not be overturned on factual grounds unless objectively
unreasonable in light of the evidence presented in the state-court
proceeding[.]” Miller—El v. Cockrell, 537 U.S. 322, 340, 123 S.Ct.
1029, 154 L.Ed.2d 931 (2003) (dictum). When reviewing a claim under
§2254(d), a federal court must bear in mind that any “determination
of a factual issue made by a State court shall be presumed to be
correct[,]” and the petitioner bears “the burden of rebutting the
presumption of correctness by clear and convincing evidence.” 28
U.S.C. §2254(e)(1); see, e.g., Burt v. Titlow, ____ U.S. ___, ___,
134 S.Ct. 10, 1516, 187 L.Ed.2d 348 (2013); Miller—El, 537 U.S. at
340 (explaining that a federal court can disagree with a state
court's factual finding and, when guided by AEDPA, “conclude the
decision was unreasonable or that the factual premise was incorrect
by clear and convincing evidence”).
Further, the Supreme Court has recognized that the AEDPA
imposes a highly deferential standard for evaluating state-court
rulings and requires that state-court decisions be given the
benefit of the doubt. Burt v. Titlow,
14

U.S.

,

, 134

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 15 of 90

S.Ct. 10, 15 (2013)(stating, “AEDPA recognizes a foundational
principle of our federal system: State courts are adequate forums
for the vindication of federal rights.”); Hardy v. Cross,
U.S.

,

that

the

evaluating

565

, 132 S.Ct. 490, 491, 181 L.Ed.2d 468 (2011)(noting
AEDPA

“imposes

state-court

a

highly

rulings

and

deferential
demands

standard

that

for

state-court

decisions be given the benefit of the doubt.”)(quoting Felkner v.
Jackson,

562 U.S. 594, 131 S.Ct. 1305, 1307, 179 L.Ed.2d 374

(2011)). Thus, “[a]s a condition for obtaining habeas corpus from
a federal court, a state prisoner must show that the state court's
ruling ... was so lacking in justification that there was an error
well

understood

and

comprehended

in

existing

law

beyond

any

possibility for fairminded disagreement.” Harrington v. Richter,
562 U.S.

86, 101-102, 131 S.Ct. 770, 786–87, 178 L.Ed.2d 624

(2011). See also Greene v. Fisher, 565 U.S. 34, 39, 132 S.Ct. 38,
43, 181 L.Ed.2d 336 (2011)(The purpose of AEDPA is “to ensure that
federal

habeas

relief

functions

as

a

guard

against

extreme

malfunctions in the state criminal justice systems, and not as a
means of error correction.”)(internal quotation marks omitted).
As pointed out by the Eleventh Circuit, “the standard of
§2254(d) is ‘difficult to meet .... because it was meant to be.’”
Downs v. Sec'y, Fla. Dep't of Corr's, 748 F.3d 240 (11th Cir.
2013)(quoting, Titlow, 134 S.Ct. at 16). This “highly deferential
standard” demands that “[t]he petitioner carries the burden of
proof,” Id., quoting, Cullen v. Pinholster, 563 U.S. 170, 180, 131
S.Ct. 1388, 1398, 1403, 179 L.Ed.2d 557 (2011)(internal quotation
marks omitted) and “‘that state-court decisions be given the
benefit of the doubt,’ Woodford v. Visciotti, 537 U.S. 19, 24, 123
S.Ct. 357, 360, 154 L.Ed.2d 279 (2002).’” Id.

15

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 16 of 90

Review under §2254(d)(1) is limited to the record that was
before the state court that adjudicated the claim on the merits.
See Cullen v. Pinholster, 563 U.S. 170, 180-90, 131 S.Ct. 1388,
1398-1400,

1403,

179

L.Ed.2d

557

(2011)(holding

new

evidence

introduced in federal habeas court has no bearing on Section
2254(d)(1) review). And, a state court's factual determination is
entitled to a presumption of correctness. 28 U.S.C. §2254(e)(1).
Under 28 U.S.C. §2254(e)(1), this Court must presume the state
court's factual findings to be correct unless the petitioner rebuts
that

presumption

by

clear

and

convincing

evidence.

See

id.

§2254(e)(1). As recently noted by the Eleventh Circuit in Debruce,
758 F.3d at 1266, although the Supreme Court has “not defined the
precise relationship between §2254(d)(2) and §2254(e)(1),” Burt v.
Titlow,

U.S.

,

, 134 S.Ct. 10, 15, 187 L.Ed.2d 348

(2013), the Supreme Court has emphasized “that a state-court
factual

determination

is

not

unreasonable

merely

because

the

federal habeas court would have reached a different conclusion in
the first instance.” Burt, Id. (quoting Wood v. Allen, 558 U.S.
290, 301, 130 S.Ct. 841, 849, 175 L.Ed.2d 738 (2010)).
B. Ineffective Assistance of Counsel Standard
Petitioner

also

claims

that

trial

counsel

provided

constitutionally ineffective assistance. This Court’s analysis
begins with the familiar rule that the Sixth Amendment affords a
criminal defendant the right to “the Assistance of Counsel for his
defense.” U.S. CONST. amend. VI. “The benchmark for judging any
claim of ineffectiveness must be whether counsel's conduct so
undermined the proper functioning of the adversarial process that
the trial cannot be relied on as having produced a just result.”
Strickland v. Washington, 466 U.S. 668, 686, 104 S.Ct. 2052, 80
L.Ed.2d 674 (1984).
16

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 17 of 90

In Strickland, the Supreme Court established a two-part test
to determine whether a convicted person is entitled to habeas
relief on the grounds that his or her counsel rendered ineffective
assistance: (1) whether counsel's representation was deficient,
i.e., “fell below an objective standard of reasonableness” “under
prevailing professional norms,” which requires a showing that
“counsel made errors so serious that counsel was not functioning as
the ‘counsel’ guaranteed the defendant by the Sixth Amendment”; and
(2) whether the deficient performance prejudiced the defendant,
i.e., there was a reasonable probability that, but for counsel's
unprofessional errors, the result of the proceeding would have been
different, which “requires showing that counsel's errors were so
serious as to deprive the defendant of a fair trial, a trial whose
result is reliable.” Strickland, 466 U.S. at 688; see also Bobby
Van Hook, 558 U.S. 4, 8, 130 S.Ct. 13, 175 L.Ed.2d 255 (2009);
Cullen v. Pinholster, 563 U.S. 170, 185, 131 S.Ct. 1388, 1403 179
L.Ed.2d 557 (2011).
“[T]he Federal Constitution imposes one general requirement:
that counsel make objectively reasonable choices.” Bobby Van Hook,
558 U.S. at 9 (internal quotations and citations omitted). A court
must adhere to a strong presumption that “counsel's conduct falls
within the wide range of reasonable professional assistance.”
Strickland, 466 U.S. at 689. Strategic choices made after thorough
investigation of the law and facts relevant to plausible options
are virtually unchallengeable. Id. at 690-91. To uphold a lawyer's
strategy, the Court need not attempt to divine the lawyer's mental
processes underlying the strategy. “There are countless ways to
provide effective assistance in any given case.” Strickland, 466
U.S. at 689. No lawyer can be expected to have considered all of
the ways. Chandler v. United States, 218 F.3d 1305, 1316 (11th Cir.
2000)(en banc), cert.den'd, 531 U.S. 1204 (2001). If the petitioner
17

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 18 of 90

cannot meet one of Strickland’s prongs, the court does not need to
address the other prong. Strickland, 466 U.S. at 697. See also
Butcher v. United States, 368 F.3d 1290, 1293 (11th Cir. 2004);
Holladay v. Haley, 209 F.3d 1243, 1248 (11th Cir. 2000).
The Strickland test applies to claims involving ineffective
assistance of counsel during the punishment phase of a non-capital
case. See Glover v. United States, 531 U.S. 198 (2001)(holding
“that if an increased prison term did flow from an error [of
counsel] the petitioner has established Strickland prejudice”).
Prejudice is established if “there is a reasonable probability that
but for trial counsel's errors the defendant's non-capital sentence
would have been significantly less harsh.” Spriggs v. Collins, 993
F.2d 85, 88 (5th Cir. 1993). The standard is also the same for
ineffective

assistance

of

appellate

counsel

claims,

requiring

petitioner to demonstrate deficient performance and prejudice.
Philmore v. McNeil, 575 F.3d 1251, 1264 (11th Cir. 2009)(citing
Heath v. Jones, 941 F.2d 1126, 1130 (11th Cir. 1991)); Smith v.
Robbins, 528 U.S. 259, 285–86, 120 S.Ct. 746, 145 L.Ed.2d 756
(2000); Roe v. Flores–Ortega, 528 U.S. at 476–77.
If the Court finds there has been deficient performance, it
must examine the merits of the claim omitted on appeal. If the
omitted claim would have had a reasonable probability of success on
appeal, then the deficient performance resulted in prejudice.
Eagle, 279 F.3d at 943. See also Digsby v. McNeil, 627 F.3d 823,
831

(11th

Cir.

2010)(holding

that

to

determine

whether

the

petitioner’s appellate counsel rendered ineffective assistance, the
court must assess the strength of the claim that the petitioner
asserts his appellate counsel should have raised in his state
direct appeal and only if failure to bring the claim both rendered
counsel's performance deficient and resulted in prejudice to the
18

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 19 of 90

petitioner was there ineffective assistance); Joiner v. United
States, 103 F.3d 961, 963 (11th Cir. 1997). Non-meritorious claims
which are not raised on direct appeal do not constitute ineffective
assistance of counsel. Diaz v. Sec'y for the Dep't of Corr's, 402
F.3d 1136, 1144–45 (11th Cir. 2005).
Further, the Supreme Court has held that the Sixth Amendment
does not require appellate attorneys to press every non-frivolous
issue that the client requests to be raised on appeal, provided
that counsel uses professional judgment in deciding not to raise
those issues. Jones v. Barnes, 463 U.S. 745 (1983). In considering
the reasonableness

of

an

attorney's

decision

not

to

raise

a

particular issue, this Court must consider “all the circumstances,
applying a heavy measure of deference to counsel's judgments.”
Eagle v. Linahan, 279 F.3d 926, 940 (11th Cir. 2001), quoting,
Strickland, 466 U.S. at 691.
Keeping these principles in mind, the Court must now determine
whether counsel's performance was both deficient and prejudicial
under Strickland. As indicated, Courts must be highly deferential
in reviewing counsel's performance, and must apply the strong
presumption that counsel's performance was reasonable. “[I]t is all
too easy for a court, examining counsel's defense after it has
proved unsuccessful, to conclude that a particular act or omission
of counsel was unreasonable.” Strickland, 466 U.S. at 689. See also
Chandler

v.

United

States,

218

F.3d

at

1314.

“Surmounting

Strickland's high bar is never an easy task.” Padilla v. Kentucky,
559 U.S. 356, 371, 130 S.Ct. 1473, 1485, 176 L.Ed.2d 284, 297
(2010). See also Osborne v. Terry, 466 F.3d 1298, 1305 (11th Cir.
2006)(citing Chandler v. United States, 218 F.3d at 1313).
A habeas court’s review of a claim under the Strickland
19

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 20 of 90

standard is “doubly deferential.” Knowles v. Mirzayance, 556 U.S.
111, 123, 129 S.Ct. 1411, 1420, 173 L.Ed.2d 251 (2009), citing,
Yarborough v. Gentry, 540 U.S. 1, 5-6, 124 S.Ct. 1, 157 L.Ed.2d 1
(2003)(per curiam). The relevant question “is not whether a federal
court believes the state court's determination under the Strickland
standard

was

incorrect

but

whether

that

determination

was

unreasonable-a substantially higher threshold.” Knowles, 556 U.S.
at 123, 129 S.Ct. at 1420. (citations omitted). Finally, “because
the Strickland standard is a general standard, a state court has
even more latitude to reasonably determine that a defendant has not
satisfied that standard.” Id
Under AEDPA, a habeas petitioner must establish that the state
court's application of Strickland was unreasonable under 28 U.S.C.
§2254(d). “Where the highly deferential standards mandated by
Strickland and AEDPA both apply, they combine to produce a doubly
deferential form of review that asks only ‘whether there is any
reasonable argument that counsel satisfied Strickland's deferential
standard.’” Gissendaner v. Seaboldt, 735 F.3d 1311, 1323 (11th Cir.
2013)(quoting Harrington, 562 U.S. at 103, 131 S.Ct. at 788).

V.

A.
The respondent

Threshhold Issues

Statute of Limitations

properly concedes that the instant habeas

petition is not time-barred. (DE#18:16). See 28 U.S.C. §2244(d)(1)(2). The petition (DE#1) was filed after April 24, 1996, the
effective date of the Antiterrorism and Effective Death Penalty Act
of

1996

(AEDPA),

Pub.L.

No.

104-132,

110

Stat.

1214

(1996).

Consequently, post-AEDPA law governs this action. Abdul-Kabir v.
Quarterman, 550 U.S. 233, 127 S.Ct. 1654, 1664, 167 L.Ed.2d 585
20

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 21 of 90

(2007); Penry v. Johnson, 532 U.S. 782, 792, 121 S.Ct. 1910, 150
L.Ed.2d 9 (2001); Davis v. Jones, 506 F.3d 1325, 1331, n.9 (11 Cir.
2007). Given the foregoing procedural history, it appears that this
federal petition was timely instituted.
As will be recalled, there was a total of 319 days during which
no state post-conviction proceedings were pending so as to toll the
federal limitations period. Since less that one year went untolled
from the time petitioner's conviction became final on March 11, 2013
until he filed his federal habeas corpus petition on April 6, 2016,
this proceeding is timely instituted. This is so because the oneyear federal limitations period did not fully expire since there
were state post-conviction proceedings pending which served to toll
its expiration. See Artuz

v. Bennett, 531 U.S. 4 (2000) (pendency

of properly-filed state postconviction proceedings tolls the AEDPA
limitations period).
B. Exhaustion and Procedural Bar
Next, it well-settled that an applicant’s federal writ of
habeas corpus will not be granted unless the applicant exhausted his
state court remedies. 28 U.S.C. §2254(b),(c).11 See Mauk v. Lanier,

11
The terms of 28 U.S.C. §2254(b) and (c) provide in pertinent part as
follows:

(b)(1) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the judgment
of a State court shall not be granted unless it appears
that —
(A)
the applicant has exhausted the remedies
available in the courts of
the State; or
(B)
(i) there is absence of available State
corrective process; or
(ii) circumstances exist that render such
process ineffective to protect the rights of the
applicant.
.

.

.

21

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 22 of 90

484 F.3d 1352, 1357 (11th Cir. 2007). It has long been required
that, prior to filing a §2254 petition, a petitioner must have
exhausted his available state court remedies, thereby giving the
state the the ?'opportunity to pass upon and correct' alleged
violations of its prisoners' federal rights” Duncan v. Henry, 513
U.S. 364, 365, 115 S.Ct. 887, 130 L.Ed.2d 865 (1995)(quoting Picard
v. Connor, 404 U.S. 270, 275, 92 S.Ct. 509, 30 L.Ed.2d 438 (1971).
To provide the state with the necessary “opportunity,” the
prisoner must “fairly present” his claim in each appropriate state
court thereby alerting that court to the federal nature of the
claim. Baldwin v. Reese, 541 U.S. 27, 29-30 (2004); Duncan v. Henry,
513 U.S. 364, 365-366 (1995). See also O’Sullivan v. Boerckel, 526
U.S. 838 (1999). In other words, proper exhaustion of a claim must
be ?serious and meaningful,” requiring the petitioner to ?afford the
State a full and fair opportunity to address and resolve the claim
on the merits.” Kelley v. Sec'y for Dep't of Corr's, 377 F.3d 1317,
1343-44 (11th Cir. 2004). Further, a claim must be presented to the
highest court of the state to satisfy the exhaustion of state court
remedies requirement. O’Sullivan v. Boerckel, 526 U.S. 838 (1999);
Richardson v. Procunier, 762 F.2d 429, 430 (5th Cir. 1985); Carter
v. Estelle, 677 F.2d 427, 443 (5th Cir. 1982), cert. denied, 460
U.S. 1056 (1983). Exhaustion is not satisfied, however, if the
petitioner (1) fails to raise a federal claim in the state court,
see, e.g., Bailey v. Nagle, 172 F.3d 1299, 1303 (11th Cir. 1999); or
(2) fails to raise a claim in terms of federal law, see, e.g., Gray
v. Netherland, 518 U.S. 152, 162-63, 116 S.Ct. 2074, 2081, 135
L.Ed.2d 457 (1996).

(c) An applicant shall not be deemed to have exhausted
the remedies available in the courts of the State,
within the meaning of this section, if he has the right
under the law of the State to raise, by any available
procedure, the question presented.

22

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 23 of 90

In Florida, exhaustion is ordinarily accomplished on direct
appeal. If not, it may be accomplished by the filing of a Rule 3.850
motion, and an appeal from its denial. Leonard v. Wainwright, 601
F.2d 807, 808 (5th Cir. 1979). In the case of a challenge to a
sentence, exhaustion is accomplished by the filing of a Rule 3.800
motion, and an appeal from its denial. See Caraballo v. State, 805
So.2d 882 (Fla. 2d DCA 2001). Claims of ineffective assistance of
trial counsel are generally not reviewable on direct appeal, but are
properly raised in a Rule 3.850 motion for post-conviction relief.
See Kelley v. State, 486 So.2d 578, 585 (Fla.), cert. den'd, 479
U.S. 871, 107 S.Ct. 244, 93 L.Ed.2d 169 (1986). Further, claims
concerning representation received by appellate counsel are properly
brought by way of a petition for habeas corpus relief to the
appropriate district court of appeal.

State v. District Court of

Appeal, First District, 569 So.2d 439 (Fla. 1990). Exhaustion also
requires that an ineffective assistance of trial counsel claim not
only be raised in a Rule 3.850 motion, but the denial of the claim
be presented on appeal. See Leonard v. Wainwright, 601 F.2d at 808.
?The

teeth

of

the

exhaustion

requirement

comes

from

its

handmaiden, the procedural default doctrine. If the petitioner has
failed to exhaust state remedies that are no longer available, that
failure is a procedural default which will bar federal habeas
relief,” unless one of two exceptions apply: cause and prejudice or
fundamental miscarriage of justice. Smith v. Jones, 256 F.3d 1135,
1138 (11 Cir. 2001). ?A claim is procedurally defaulted if it has
not been exhausted in state court and would now be barred under
state procedural rules.” Mize v. Hall, 532 F.3d 1184, 1190 (11 Cir.
2008). See also Bailey v. Nagle, 172 F.3d 1299, 1305 (11 Cir. 1999).
For instance, when an issue was not presented to the state
court, and where petitioner has already filed one Rule 3.850 motion,
23

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 24 of 90

the issue is considered procedurally defaulted or barred from
federal review. See Bailey v. Nagle, 172 F.3d 1299, 1302-03 (11th
Cir. 1999);

Kelley v. Secretary for Dept. of Corr., 377 F.3d 1317,

1351 (11th Cir. 2004)(“[W]hen it is obvious that the unexhausted
claims would be procedurally barred in state court due to a statelaw procedural default, [the district court] can forego the needless
‘judicial ping-pong’ and just treat those claims now barred by state
law as no basis for federal habeas relief.”(internal quotation marks
omitted));

Canif

v.

Moore,

269

F.3d

1245,

1247

(11th

Cir.

2001)(?[C]laims that have been held to be procedurally defaulted
under state law cannot be addressed by federal courts.”); Chambers
v. Thompson, 150 F.3d 1324, 1326-27 (11th Cir. 1998)(applicable
state procedural bar should be enforced by federal courts even as
to a claim which has never been presented to a state court).
Besides a failure to exhaust, a procedural default may also
result from non-compliance with state procedural requirements. See
Coleman v. Thompson, 501 U.S. 722, 729-30, 111 S.Ct. 2546, 115
L.Ed.2d 640, reh'g denied, 501 U.S. 1277, 112 S.Ct. 27, 115 L.Ed.2d
1109 (1991). Thus, federal courts are barred from reaching the
merits

of

a

state

prisoner’s

federal

habeas

claim

where

the

petitioner has failed to comply with an independent and adequate
state procedural rule. Wainwright v. Sykes, 433 U.S. 72, 85-86, 97
S.Ct. 2497, 53 L.Ed.2d 594 (1977). See also Siebert v. Allen, 455
F.3d 1269, 1271 (11th Cir. 2006), cert. denied, 549 U.S. 1286, 127
S.Ct. 1823, 167 L.Ed.2d 331 (2007); Harmon v. Barton, 894 F.2d 1268,
1270 (11th Cir. 1990). To apply an express procedural bar, the state
procedural rule must be regularly followed. See Baldwin v. Johnson,
152 F.3d 1304, 1317 (11th Cir. 1998)(finding that federal courts may
not review a claim that a petitioner procedurally defaulted under
state law if the last state court to review the claim states clearly
and expressly that its judgment rests on a procedural bar, and the
24

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 25 of 90

bar presents an independent and adequate state ground for denying
relief), cert. denied, 526 U.S. 1047, 119 S.Ct. 1350, 143 L.Ed.2d
512 (1999). Application of a regularly established state procedural
rule is appropriate where the appellate court silently affirms the
lower court procedural bar since federal courts should not presume
an appellate state court would ignore its own procedural rules in
summarily denying applications for post-conviction relief. Tower v.
Phillips, 7 F.3d 206, 211 (11th Cir. 1993).
The United States Supreme Court has recently discussed the
doctrine of procedural default:
Federal
habeas
courts
reviewing
the
constitutionality
of
a
state
prisoner’s
conviction and sentence are guided by rules
designed to ensure that state-court judgments
are accorded the finality and respect necessary
to preserve the integrity of legal proceedings
within our system of federalism. These rules
include the doctrine of procedural default,
under which a federal court will not review the
merits of claims, including constitutional
claims, that a state court declined to hear
because the prisoner failed to abide by a state
procedural rule. See, e.g., Coleman,[12] supra,
at 747–748, 501 U.S. 722, 111 S.Ct. 2546, 115
L.Ed.2d 640; Sykes,[13] supra, at 84–85, 433
U.S. 72, 97 S.Ct. 2497, 53 L.Ed.2d 594. A state
court’s invocation of a procedural rule to deny
a prisoner’s claims precludes federal review of
the claims if, among other requisites, the
state procedural rule is a nonfederal ground
adequate to support the judgment and the rule
is
firmly
established
and
consistently
followed. See, e.g., Walker v. Martin, 562 U.S.
,
, 131 S.Ct. 1120, 1127–1128, 179
L.Ed.2d 62 (2011); Beard v. Kindler, 558 U.S.
12

Coleman v. Thompson, 501 U.S. 722, 111 S.Ct. 2546, 115 L.Ed.2d 640

(1991).
13

Wainwright v. Sykes, 433 U.S. 72, 97 S.Ct. 2497, 53 L.Ed.2d 594 (1977).

25

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 26 of 90

53, [60-61], 130 S.Ct. 612, 617–618, 175
L.Ed.2d 417 (2009). The doctrine barring
procedurally defaulted claims from being heard
is not without exceptions. A prisoner may
obtain federal review of a defaulted claim by
showing cause for the default and prejudice
from a violation of federal law. See Coleman,
501 U.S., at 750, 111 S.Ct. 2546, 115 L.Ed.2d
640.
Martinez v. Ryan,

U.S.

,

, 132 S.Ct. 1309, 1316, 182

L.Ed.2d 272 (2012).
Thus, even when a claim has been procedurally defaulted in the
state courts, a federal court may still consider the claim if a
state habeas petitioner can show either (1) cause for and actual
prejudice from the default; or (2) a fundamental miscarriage of
justice. Maples v. Thomas,

U.S.

,

, 132 S.Ct. 912, 922,

181 L.Ed.2d 807 (2012)(citations omitted); In Re Davis, 565 F.3d
810, 821 (11th Cir. 2009)(citation omitted).
Even when a claim has been procedurally defaulted in the state
courts, a federal court may still consider the claim if a state
habeas petitioner can show either (1) cause for and actual prejudice
from the default; or (2) a fundamental miscarriage of justice.
Maples v. Thomas, 565 U.S. 266, 276, 132 S.Ct. 912, 922, 181 L.Ed.2d
807 (2012)(citations omitted); In Re Davis, 565 F.3d 810, 821 (11th
Cir. 2009)(citation omitted). See also Martinez v. Ryan, 566 U.S.
1, 9-10, 132 S.Ct. 1309, 1316, 182 L.Ed.2d 272 (2012).
For a petitioner to establish cause, the procedural default
“must result from some objective factor external to the defense that
prevented [him] from raising the claim and which cannot be fairly
attributable to his own conduct.” McCoy v. Newsome, 953 F.2d 1252,
1258 (11th Cir. 1992)(quoting Murray v. Carrier, 477 U.S. 478, 488,
26

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 27 of 90

106 S.Ct. 2639, 91 L.Ed.2d 397). In Martinez v. Ryan, the Supreme
Court created a narrow exception to the rule that an attorney's
errors in a postconviction proceeding do not qualify as cause for
a procedural default. The Court held:
Where, under state law, claims of ineffective
assistance of trial counsel must be raised in
an initial-review collateral proceeding, a
procedural default will not bar a federal
habeas court from hearing a substantial claim
of ineffective assistance at trial if, in the
initial-review collateral proceeding, there was
no counsel or counsel in that proceeding was
ineffective.
Martinez, 132 S.Ct. at 1320.
To establish prejudice, a petitioner must show that “the errors
at trial actually and substantially disadvantaged his defense so
that he was denied fundamental fairness.” Id. at 1261 (quoting
Carrier, 477 U.S. at 494, 106 S.Ct. 2639, 91 L.Ed.2d 397).
In

the

absence

of

a

showing

of

cause

and

prejudice,

a

petitioner may nevertheless receive consideration on the merits of
a procedurally defaulted claim if he can establish a fundamental
miscarriage of justice otherwise would result (i.e., the continued
incarceration of one who is actually innocent). See Ward v. Hall,
592 F.3d 1144, 1155–57 (11th Cir. 2010), cert. den'd,

U.S.

, 131 S.Ct. 647, 178 L.Ed.2d 513 (2010). “To meet this standard,
a petitioner must ‘show that it is more likely than not that no
reasonable

juror

would

have

convicted

him’

of

the

underlying

offense.” Johnson v. Alabama, 256 F.3d 1156, 1171 (11th Cir.
2001)(quoting Schlup v. Delo, 513 U.S. 298, 327, 115 S.Ct. 851, 130
L.Ed.2d 808 (1995)), cert. denied, 535 U.S. 926, 122 S.Ct. 1295, 152
L.Ed.2d 208 (2002). Additionally, “‘[t]o be credible,’ a claim of
27

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 28 of 90

actual innocence must be based on reliable evidence not presented
at trial.” Calderon v. Thompson, 523 U.S. 538, 559, 118 S.Ct. 1489,
140 L.Ed.2d 728 (1998)(quoting Schlup, 513 U.S. at 324). Such
evidence is rare, relief on such a basis is extraordinary. Schlup,
513 U.S. at 327.
With these well-established principles in mind, it needs to be
determined

at

the

outset

if

any

of

petitioner’s

claims

are

unexhausted and/or subject to procedural bars. The respondent
concedes correctly that claims 2 through 6, 8 through 9, 11, and 12
of this federal petition have been properly exhausted in the state
forum and are thus ripe for federal habeas corpus review. (DE#11:711). However, as to claims 1, 7, and 10, the state argues that they
are unexhausted and procedurally barred

federal habeas corpus

review. (Id.).
Regarding claim 1, respondent argues that the claim was first
raised by petitioner in a motion for rehearing following the denial
of his Rule 3.850 appeal, and in two ?all writs” petitions filed
with the Florida Supreme Court which were dismissed for lack of
jurisdiction. The respondent also argues that the claim was raised
in terms of a violation of state law, and not federal constitutional
principles. In his traverse (DE#15), petitioner concedes that
claim 1 was not presented properly in the state forum, but maintains
that jurisdictional issues, like the one raised herein, can be
raised at any time. (DE#15:3-4). That argument, however, is not
entirely correct. The claim must first be presented to the state
forum for it to be properly exhausted and subject to federal habeas
corpus review. Petitioner did not do so here. Thus, the claim is
procedurally defaulted from review.
Regarding claim 7, the respondent claims facts in support
28

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 29 of 90

thereof were not presented to the state court in the first instance,
and therefore, claim 7 is unexhausted. In his traverse, petitioner
agrees with the respondent that this claim is unexhausted because
the facts in support thereof were different than the facts raised
herein.

(DE#15:36).

Therefore,

this

claim

is

unexhausted

and

prospectively procedurally barred from review here.
As to claim 10, the respondent argues that petitioner raised
the claim in his Rule 3.850 motion, but not in terms of a violation
of federal constitutional principles, and its denial was not raised
on appeal therefrom. Regardless of whether or not it was raised
explicitly

in

terms

of

a

violation

of

federal

constitutional

principles, the standard for review of the sufficiency of the
evidence is similar under both federal and Florida law. See Jackson
v. Virginia, 443 U.S. 307 (1979); Smith v. White, 815 F.2d 1401 (11
Cir.

1987);

Melendez

v.

State,

498

So.2d

1258,

1261

(Fla.

1986)(citing Jackson v. Virginia, 443 U.S. 307 (1979)). In that
regard, the respondent's argument fails.
However, the respondent's argument that claim 10 is unexhausted
because its denial was not raised on direct appeal is well taken.
In Florida, exhaustion of claims raised in a Rule 3.850 motion
includes an appeal from the denial of the motion. See Leonard v.
Wainwright, 601 F.2d 807, 808 (5th Cir. 1979). Florida law also
establishes that claims for which an appellant does not present any
argument-or presents only conclusory argument-are waived. See, e.g.,
Gamble v. State, 877 So.2d 706 (Fla. 2004).
Accordingly, a petitioner must present all claims-whether
summarily denied or denied after an evidentiary hearing-in the
initial brief to the appellate court, or else its denial is deemed
waived. See Prince v. State, 40 So.3d 11 (Fla. 4th DCA 2010);
29

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 30 of 90

Hammond v. State, 34 So.3d 58 (Fla. 4 DCA 2010)(claim for which
appellant did not present argument, or for which he provided only
conclusory argument, was insufficiently presented for appellate
review, regardless of whether claim was among those claims litigated
at evidentiary hearing or among those claims summarily denied by
trial court); N.W. v. Dep't of Children & Families, 865 So.2d 625,
625 (Fla. 4 DCA 2004). See also, Duest v. Dugger, 555 So.2d 849
(Fla. 1990)(?The
arguments

in

purpose

support

of

of

the

an

appellate

points

on

brief

is

appeal.

to

present

Merely

making

reference to arguments below without further elucidation does not
suffice to preserve issues, and these claims are deemed to have been
waived.”);
(where

Williams v. State, 24 So.3d 1252 (Fla. 1st DCA 2009)

appellant

received

evidentiary

hearing

on

some

of

his

post-conviction claims and others were summarily denied, appellate
court would review only those summarily denied claims which movant
argued in the appellate brief). See also Walton v. State, 58 So.3d
887, 888 (Fla. 2 DCA 2011)(where all of appellant's post-conviction
claims were summarily denied, but appellant chose to file initial
brief

on

appeal

Fla.R.App.P.

(even

though

9.141(b)(2)),

not

appellant

required
abandoned

to

do

any

so

under

issues

not

addressed in initial brief); Ward v. State, 19 So.3d 1060, 1061
(Fla. 5 DCA 2009) (en banc)(same); Watson v. State, 975 So.2d 572
(Fla. 1 DCA 2008)(same); Austin v. State, 968 So.2d 1049 (Fla. 5 DCA
2007)(same).
Although petitioner prosecuted an appeal following the denial
of his Rule 3.850 motion, he did not challenge the trial court's
denial of claim 10 of this federal petition in his initial brief on
appeal. Therefore, petitioner waived appellate review of claim 10,
and thus the claim was not properly exhausted in the state courts.
To the extent petitioner attempts to suggest he is ignorant of
30

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 31 of 90

the law, that does not excuse his failure to properly exhaust the
claims raised herein in the state forum. Finally, any attempt to
suggest in objections that his procedural default should be excused
based upon the Supreme Court's decision in Martinez v. Ryan, supra,
such an argument should not be entertained for the first time in
objections. Moreover, it nonetheless warrants no relief.
In Martinez v. Ryan, 566 U.S. 1, 9, 132 S.Ct. 1309, 1318, 182
L.Ed.2d 272 (2012), the Supreme Court held that if ?a State requires
a prisoner to raise an ineffective-assistance-of-trial-counsel claim
in a collateral proceeding, a prisoner may establish cause for a
default of an ineffective-assistance claim ...” when (1) ?the state
courts did not appoint counsel in the initial-review collateral
proceeding,

where

the

claims

should

have

been

raised,

was

ineffective, pursuant to Strickland [v. Washington, 466 U.S. 668
(1984)].” Martinez v. Ryan, 566 U.S. at 9, 132 S.Ct. at 1318. In
this

regard,

underlying

the

petitioner

?must

also

demonstrate

ineffective-assistance-of-trial-counsel

that

claim

the

is

a

substantial one, which is to say that the prisoner must demonstrate
that the claim has some merit.” Id.
In other words, in Martinez v. Ryan, 566 U.S. 1, 11, 132 S.Ct.
1309, 1320 (2012), the Supreme Court explained that ?[W]here, under
state law, claims of ineffective assistance of trial counsel must
be raised in an initial-review collateral proceeding, a procedural
default

will

not

bar

a

federal

habeas

court

from

hearing

a

substantial claim of ineffective assistance at trial if, in the
initial-review collateral proceeding, there was no counsel or
counsel in that proceeding was ineffective.” Martinez v. Ryan,
supra.(emphasis added). Therefore, relief is available if (1) state
procedures

make

it

virtually

impossible

to

actually

raise

ineffective assistance of trial counsel claims on direct appeal; and
31

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 32 of 90

(2) the petitioner’s state collateral counsel was ineffective for
failing to raise ineffective assistance of trial counsel claims in
the state proceedings. See Lambrix v. Sec’y, Fla. Dep’t of Corr.,
756 F.3d 1246, 1261 n.31 (11th Cir. 2014).
The claim of ineffective assistance must be a “substantial one,
which is to say that the prisoner must demonstrate that the claim
has some merit.” Martinez, 132 S.Ct. at 1318. The Eleventh Circuit
held in Trevino v. Thaler, 133 S.Ct. 1911 (11th Cir. 2013), that the
exception recognized in Martinez applies when a State’s procedural
framework makes it highly unlikely that a defendant in a typical
case will have a meaningful opportunity

to

raise a claim of

ineffective assistance of trial counsel on direct appeal.
In Hittson v. GDCP Warden, 759 F.3d 1210, 1262 (11th Cir.
2014), the Eleventh Circuit explained Martinez' ?substantial claim”
requirement, reiterating that:
To overcome the default, a prisoner must ...
demonstrate that the underlying ineffectiveassistance-of-trial-counsel
claim
is
a
substantial one, which is to say that the
prisoner must demonstrate that the claim has
some merit. Cf. Miller-El v. Cockrell, 537 U.S.
322,
123
S.Ct.
1029,
154
L.Ed.2d
931
(2003)(describing standards for certificates of
appealability to issue).
Martinez, ___ U.S. at _____, 132 S.Ct. at 1318-19. In Miller-El, the
Supreme Court explained that ?[a] petitioner satisfies this standard
by

demonstrating

...

that

jurists

could

conclude

the

issues

presented are adequate to deserve encouragement to proceed further.”
Miller-El v. Cockrell, 537 U.S. at 327, 123 S.Ct. at 1034. Where the
petitioner has to make a ?substantial showing” without the benefit
of a merits determination by an earlier court, he must demonstrate
32

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 33 of 90

that ?jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right.” Slack
v. McDaniel, 529 U.S. 473, 484, 120 S.Ct. 1594, 1604, 146 L.Ed.2d
542 (2000). ?[A] claim can be debatable even though every jurist of
reason

might

agree,

after

the

...

case

has

received

full

consideration, that petitioner will not prevail.” Id.
The

Eleventh

Circuit

in

Hittson

also

observed

that

the

foregoing standard is similar to the preliminary review standard set
forth in Rule 4 of the Rules Governing §2254 Proceedings, which
allows district courts to summarily dismiss a petition ?[i]f it
plainly appears from the petition and any attached exhibits that the
petitioner is not entitled to relief.” See Hittson, 759 F.3d at
1269-70 (footnotes omitted). Thus, the Eleventh Circuit instructs
that the §2254 petition must be examined to determine whether
?jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right....”
Hittson, supra.
As applied here, the respondent is correct, that claims 1, 7,
and

10

are

prospectively

unexhausted,

but

procedurally

more

barred

importantly,
from

review.

they

are

also

Nevertheless,

Martinez v. Ryan, supra., provides an exception to the procedural
default rule, allowing review of such claims if petitioner can
demonstrate that his claims of ineffective assistance of counsel are
“substantial.” In other words, petitioner must make a showing of a
“substantial” claim of ineffective assistance of trial or appellate
counsel which will be addressed in the Discussion section, infra.
Further, actual innocence may “serve as a gateway through which
a petitioner may pass whether the impediment is a procedural bar...
or ... expiration of the statute of limitations.” McQuiggen v.
33

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 34 of 90

Perkins, 133 S.Ct. 1924, 1928 (2013); see Carrier, 477 U.S. at 496
(“in an extraordinary case, where a constitutional violation has
probably resulted in the conviction of one who is actually innocent,
a federal habeas court may grant the writ even in the absence of a
showing of cause for the procedural default.”). This exception
requires the petitioner to persuade the district court that, in
light of new evidence, no juror, acting reasonably, would have voted
to find him guilty beyond a reasonable doubt. Id.; Rozzelle v.
Sec’y, Fla. Dep’t of Corr's, 672 F.3d 1000, 1011 (11th Cir. 2012).
In making this assessment, the timing of the petition is a
factor bearing on the reliability of the evidence purporting to show
actual innocence. Schlup v. Delo, 513 U.S. 298, 327 (1995). To
successfully plead actual innocence, a petitioner must show that his
conviction resulted from a “constitutional violation.” Id. at 327.
“Actual

innocence”

means

factual

innocence,

not

mere

legal

insufficiency. Johnson v. Fla. Dep’t of Corr's, 513 F.3d 1328, 1334
(11th Cir. 2008). This exception is exceedingly narrow in scope and
requires proof of actual innocence, not just legal innocence.
Johnson v. Alabama, 256 F.3d 1156, 1171 (11th Cir. 2001); Spencer,
609 F.3d at 1180. No such showing is made here. Rather, he is
raising a legal defense to his convictions. Regardless, even if he
is attempting to assert a free-standing claim of factual innocence,
petitioner cannot prevail on that basis.
It is noted that, even if the claims were not procedurally
barred for the reasons stated immediately above, careful review of
the record shows that petitioner would still not be entitled to
review, let alone relief, on the ineffective assistance of counsel
claims now raised. This is so, because the claims are meritless, as

34

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 35 of 90

asserted by the Respondent.14 See Strickland v. Washington, 466 U.S.
668

(1984).

Accordingly,

petitioner

cannot

show

prejudice

to

overcome the procedural bar.
In

the

absence

of

a

showing

of

cause

and

prejudice,

a

petitioner may nevertheless receive consideration on the merits of
a procedurally defaulted claim if he can establish a fundamental
miscarriage of justice otherwise would result (i.e., the continued
incarceration of one who is actually innocent). See Ward v. Hall,
592 F.3d 1144, 1155–57 (11th Cir. 2010), cert. denied,

U.S.

, 131 S.Ct. 647, 178 L.Ed.2d 513 (2010). “To meet this standard,
a petitioner must ‘show that it is more likely than not that no
reasonable

juror

would

have

convicted

him’

of

the

underlying

offense.” Johnson v. Alabama, 256 F.3d 1156, 1171 (11th Cir.
2001)(quoting Schlup v. Delo, 513 U.S. 298, 327, 115 S.Ct. 851, 130
L.Ed.2d 808 (1995)), cert. denied, 535 U.S. 926, 122 S.Ct. 1295, 152
L.Ed.2d 208 (2002). Additionally, “‘[t]o be credible,’ a claim of
actual innocence must be based on reliable evidence not presented
at trial.” Calderon v. Thompson, 523 U.S. 538, 559, 118 S.Ct. 1489,
140 L.Ed.2d 728 (1998)(quoting Schlup, 513 U.S. at 324). Such
evidence is rare, relief on such a basis is extraordinary. Schlup,
513 U.S. at 327. Petitioner has not alleged, let alone demonstrated,
that he is entitled to review under the fundamental miscarriage of
justice exception.15 Schlup v. Delo, 513 U.S. at 321–322. Not having
14

See Response to Order to Show Cause-DE#11.

15

The petitioner must support an actual innocence claim “with new reliable
evidence-whether it be exculpatory scientific evidence, trustworthy eyewitness
accounts, or critical physical evidence-that was not presented at trial.” Schlup
v. Delo, 513 U.S. 298, 324 (1995)). The Supreme Court emphasized that actual
innocence means factual innocence, not mere legal insufficiency. Id. See also
High v. Head, 209 F.3d 1257 (11th Cir. 2000); Lee v. Kemna, 213 F.3d 1037, 1039
(8th Cir. 2000); Lucidore v. New York State Div. of Parole, 209 F.3d 107 (2d Cir.
2000)(citing Schlup v. Delo, 513 U.S. 298, 299, (1995); Jones v. United
States,153 F.3d 1305 (11th Cir. 1998)(holding that appellant must establish that
in light of all the evidence, it is more likely than not that no reasonable juror
would have convicted him).

35

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 36 of 90

shown that the fundamental miscarriage of justice exception applies,
the claims are again procedurally barred from federal review.
Where applicable, any further exhaustion and procedural default
arguments are addressed below, in relation to the claims. When
judicial economy dictates, where the merits of the claims may be
reached and readily disposed of, judicial economy has dictated
reaching the merits of the claim while acknowledging the procedural
default and bar in the alternative.16 See Lambrix v. Singletary, 520
U.S. 518 (1997). See also Barrett v. Acevedo, 169 F.3d 1155, 1162
(8th Cir. 1999)(stating that judicial economy sometimes dictates
reaching the merits if the merits are easily resolvable against a
petitioner and the procedural bar issues are complicated), cert.
denied, 528 U.S. 846 (1999); Chambers v. Bowersox, 157 F.3d 560, 564
n. 4 (8th Cir. 1998)(stating that “[t]he simplest way to decide a
case is often the best.”).
VI.

Facts Adduced at Trial

For an appreciation of this case and the multitude of claims
raised herein, a full review of the facts adduced at trial is
warranted. It is worth noting that petitioner represented himself
at trial, during which he conceded that a battery occurred, but
denied

that

he

intentionally

caused

the

victim,

Susan

Black

(?Susan”), great bodily harm. Susan testified she first met the
homeless petitioner in October 2008, when she and her husband,
David, who were also homeless at the time, were living at Dubois

16

Even if certain claims are technically unexhausted, the Court has
exercised the discretion now afforded by Section 2254, as amended by the AEDPA,
which permits a federal court to deny on the merits a habeas corpus application
containing unexhausted claims. See Johnson v. Scully, 967 F.Supp. 113 (S.D.N.Y.
1996); Walker v. Miller, 959 F.Supp. 638 (S.D. N.Y. 1997; Duarte v. Miller, 947
F.Supp. 146 (D.N.J. 1996).

36

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 37 of 90

Park

in

the

Jupiter

Inlet.

(DE#11-2:Ex.25:T.125).

Later

on,

petitioner eventually met and began living with his girlfriend,
Bonnie Jean Andreozzi (?Andreozzi”) at her apartment. (T.126-127).
Petitioner brought Andreozzi to the park and introduced her to Susan
and David. (T.127). Because of bad weather, the Blacks were invited
to stay a few days at Andreozzi's apartment. (T.125,127). Together,
the four spent two or three days drinking, stopping only to sleep.
(T.127,137,141-42).
For a while, everyone got along without incident. (T.137).
However, on December 5th, 2009, Susan recalled they had started
drinking at 12:00 o'clock, but after dinner, the petitioner went to
bed, and David left, borrowing Andreozzi's car to visit a friend.
(T.127-128). As a result, Andreozzi and Susan sat on the patio, and
continued drinking and talking. (T.128-29,137).
Later, as the two women went to the freezer to get more ice for
their drinks, the petitioner who had become irate, exited his
bedroom and began yelling at Susan, that she and her husband had to
leave because they were ?freeloading.” (T.129,139). Susan responded
that David was not there, but that as soon as he returned, they
would leave. (T.139). The three then walked to the living room,
where Andreozzi stood between the petitioner and Susan, trying to
calm him down. (T.129). The petitioner, however, reached over her
and hit Susan in the right side of her jaw, knocking her to the
ground. (T.129). Petitioner continued beating Susan in the face and
head, while she curled into a fetal position, trying to protect
herself. (T.129-30,140). When she was able to get up, she went to
the

screened-in

petitioner.

patio,

(T.129-30).

in

an

effort

Meanwhile,

to

back

Andreozzi

away

was

from

the

yelling

and

screaming, as she tried pulling the petitioner off Susan. (T.132).
During

cross-examination,

Susan
37

testified

that

she

believed

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 38 of 90

petitioner had every intention of hurting her even more if it had
not been for Andreozzi yelling and the neighbors coming out.
(T.144). In fact, Susan believed the petitioner would have kept
hitting her until he killed her. (T.144).
the

hospital,

where

she

received

ten

Susan had to be taken to
stitches

to

repair

the

laceration to her left eye. (T.134).
Officer Sean Pope (?Officer Pope”) with the Jupiter Police
Department, assigned to road patrol, testified he responded to
Andreozzi's residence on December 5, 2009. (T.149-150). When he got
there, he found Susan in the parking lot, visibly upset, wearing a
blood-soaked shirt, with blood on her arms, and a laceration above
her eye that was bleeding heavily. (Id.). Andreozzi informed Officer
Pope regarding the beating and that, after she told petitioner she
was going to call 9-1-1, the petitioner fled the area on foot.
(T.159-160).
Officer Pope then spoke with a neighbor who indicated that a
suspicious person had gone towards the other side of the building.
(T.150). As a result, Pope walked around the apartment building and
found petitioner in close proximity to his apartment, but by the
front door of another person's unit, laying curled up in a fetal
position, with blood on his hands,. (T.150-52,155-56). Petitioner
could not explain to Officer Pope where the blood on his hands came
from. (T.153-54). Officer Pope found this significant, because the
petitioner had no visible fresh injuries on his hand to explain
where the fresh blood came from. (T.154). After he advised the
petitioner that he was investigating the incident involving Susan,
petitioner denied being involved in any type of an altercation.
(T.154). Petitioner was then taken to the Jupiter Police Department
for

processing,

and

after

explaining

what

the

charges

were,

petitioner responded that the victim could not prosecute, because
38

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 39 of 90

?she was a homeless bitch.” (T.154).
VII. Discussion17
A. First Rule 3.850 Claims
In claim 1, petitioner asserts that the trial court did not
have subject matter jurisdiction to have granted the motion to
withdraw petitioner's guilty plea, filed by counsel, because the
petitioner had filed a notice of appeal, following the denial of his
pro se motion to withdraw his guilty plea, thereby divesting the
court of jurisdiction. (DE#1:6; DE#4:1).
First, it will be recalled that this claim is unexhausted and
procedurally defaulted from review in this habeas corpus proceeding.
Next, as a preliminary matter, petitioner's claim that the state
court did not have jurisdiction to vacate petitioner's judgment and
sentence, involves a matter of state law. Federal habeas relief is
only available upon a showing that a petitioner is in custody in
violation of federal law. 28 U.S.C. §2254(a). Therefore, questions
of state law are not cognizable in a federal habeas petition, even
if a petitioner characterizes such a claim as presenting a federal
question. See Branan v. Booth, 861 F.2d 1507, 1508 (11th Cir.
1988)(?It is our opinion that the petition raises issues of state
law only and, thus, must be dismissed. Although Petitioner alleges
violations of federal law, it is clear that this petition is based
exclusively on state law issues which are merely 'couched in terms
of equal protection and due process.'”)(citation omitted).

17

The court is reminded that petitioner's initial filing has been stricken
and the operative petitioner, is the amended petition (DE#10). Consequently, any
arguments or allegations not raised within the amended petition (DE#10) are
deemed abandoned or otherwise waived and are not considered by the court herein.

39

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 40 of 90

Thus, a state court's interpretation of state law cannot
provide federal habeas relief since no question of a constitutional
nature is involved. See Carrizales v. Wainwright, 699 F.2d 1053,
1055 (11th Cir. 1983). See also Jones v. Sec'y, Dep't of Corr's,
2014 WL 505093 at *6 (N.D.Fla. Feb.7, 2014) (?A state court's
jurisdiction to convict and sentence a defendant are quintessential
state law matters this Court cannot review in a federal collateral
proceeding.”).
In Carbajal v. State, 75 So.3d 258 (Fla. 2011), the Florida
Supreme Court addressed the issue of subject matter jurisdiction in
criminal prosecutions, stating as follows:
?Subject matter jurisdiction is the '[p]ower of
a particular court to hear the type of case
that is then before it” or ?jurisdiction over
the nature of the cause of action and relief
sought.” Fla. Star v. B.J.F., 530 So.2d 286,
288 (Fla. 1988)(quoting Black's Law Dictionary
767 (5th Ed. 1979)). Pursuant to section
26.012(2)(d), Florida Statutes (2001), at the
time Carbajal was charged, the circuit courts
had-as they continue to have-subject matter
jurisdiction over ?all felonies.” See also
McLean v. State, 23 Fla. 281, 2 So. 5, 5
(1887)(?In criminal cases the jurisdiction is
determined by the charge made.”).
Carbajal, 75 So.3d at 262.
However, under Florida law, subject matter jurisdiction—the
“power of the trial court to deal with a class of cases to which a
particular case belongs”—is conferred upon a court by constitution
or by statute. Cunningham v. Standard Guar. Ins. Co., 630 So.2d 179,
181 (Fla. 1994); Jesse v. State, Dep't of Revenue ex rel. Robinson,
711 So.2d 1179 (Fla. 2d DCA 1998). It cannot be conferred by waiver,

40

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 41 of 90

acquiescence, or agreement of the parties. Ruble v. Ruble, 884 So.2d
150 (Fla. 2d DCA 2004). Thus, under Florida law, a trial court's
lack of subject matter jurisdiction makes its judgment void, and a
void judgment can be attacked at any time, even collaterally.
Fla.R.Civ.P. 1.140(h); Gonzalez v. Gonzalez, 654 So.2d 257 (Fla. 3d
DCA 1995).
In this case, petitioner pleaded guilty and sentenced on June
1, 2010. (DE11-2:Ex.4-5). In accordance with the mailbox rule,
petitioner returned to the trial court filing a pro se motion to
withdraw his plea on June 17, 2010, which was not file stamped
received by the Clerk until July 9, 2010. (DE#11-2:Ex.7). While the
above pro se motion was pending, on June 30, 2010, petitioner's
counsel filed a second motion to withdraw petitioner's guilty plea.
(DE#11-2:Ex.6). Both motions argued in relevant part that counsel
had misadvised petitioner to enter a plea that utilized an incorrect
sentencing score sheet. (DE#11-2:Exs.6-7). On July 9, 2010, the
court entered an order denying petitioner's pro se motion. (DE#112:Ex.8). Before a ruling was had on the counseled motion, however,
on July 20, 2010, petitioner filed a pro se notice of appeal of the
trial court's denial of his pro se motion, which was assigned
appellate court, case no. 4D10-3228. (DE#11-2:Ex.9).
In the interim, on August 27, 2010 a status hearing was held,
at which time defense counsel reminded the court that it had
previously entered an order summarily denying petitioner's pro se
motion to withdraw his guilty plea, without fully considering all
of the grounds mentioned therein. (DE#11-2:Ex.14:49). Counsel then
explained that, while the petitioner had initially been charged with
a level 6 felony battery, on the first day of trial, he accepted a
plea to a level 1 felony battery based on priors. (Id.). However,
when the paperwork was filed, an incorrect sentencing scoresheet was
41

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 42 of 90

filed based on a level 6, instead of a level 1 offense. (Id.:50).
Counsel further explained that even under a level 1 offense, the
prosecution had indicated the injury points would be moderate, not
slight, which would result in a total of over 22 points. (Id.:51).
According to counsel, petitioner was aware of these facts, and was
advised that only if he scored under 22 points, the term of
imprisonment would be no more than a year imprisonment. (Id.).
Counsel next advised the court that petitioner has also made
allegations in his motion that he was coerced by his attorney into
accepting the plea, stating that counsel had ?threatened him.”
(Id.). Counsel concluded that if the court were inclined to grant
withdrawal of the plea, that it should then appoint conflict free
counsel to represent the petitioner. (Id.:52).
The court acknowledged that petitioner wanted to address the
court directly, at which time petitioner indicated that counsel
advised

him

not

to

ask

any

questions

at

the

change

of

plea

proceeding or else the court would not accept the plea and he would
be sentenced to five years imprisonment. (Id.:53). Petitioner also
stated he was ?definitely coerced,” and ?under duress” at the time.
(Id.). In response, the court inquired whether or not the petitioner
wanted to have a trial now, to which the petitioner responded, ?I
would love to have another trial, Your Honor.” (Id.:53-54).
Thereafter, the prosecution addressed the court, indicatiing
that if the judgment were going to be set aside, an Amended
Information would be filed charging petitioner with aggravated
battery given his status as a prison releasee reoffender, which
would result in a 15-year minimum mandatory term of imprisonment if
convicted. (Id.:54). Petitioner responded, addressing the court,
explaining again that when he accepted the plea, it was based upon
a scoresheet that listed the primary offense as a level 6 felony
42

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 43 of 90

battery, which gave him over 44 points. (Id.:55-56). However, the
prosecution countered that the plea offer had nothing to do with the
scoresheet.

(Id.:57).

The

prosecutor

was

adamant

that,

given

petitioner's violent history, from the outset petitioner was facing
prison time, ?no matter what.” (Id.:57). The prosecutor noted,
however,

that

if

the

scoresheet

had

been

properly

prepared,

petitioner would have score out to a total of 14 months, rather than
24-months. (Id.:58).
The court then asked the prosecution whether they wanted to
have a full evidentiary hearing or just proceed to trial. (Id.:5758). The prosecutor responded that a trial would be ?just fine.”
(Id.:58). Thus, after considering petitioner's statements and the
prosecution's recommendation, the court granted the petitioner's
counseled motion to withdraw guilty plea, vacated the judgment and
resulting sentence, and set the case for trial. (Id.).
In its order, the court specifically found as follows:
...judgment and sentence is set aside at the
request of defendant. Upon reflection, he would
prefer to go to trial. He believes the
sentencing scoresheet used at the time of his
sentence was incorrect. In this regard he is
correct. He has also asserted his attorney
forced him to enter the plea. As a result the
court appoints new counsel and sets this matter
for trial.
(DE#11-2:Ex.15).
As will be recalled, petitioner proceeded to trial pro se and
was

convicted

as

charged

in

the

Second

Amended

Information,

following a jury verdict, was adjudicated guilty and sentenced to
a 15-year minimum mandatory term of imprisonment as a prison
43

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 44 of 90

releasee reoffender.
Now, with the benefit of hindsight, petitioner seeks a do over
claiming the trial court had no jurisdiction to grant vacatur of his
guilty plea, even if that is what he had requested, since the court
did not have jurisdiction over his case because of the pendency of
his pro se appeal. Under Florida Rule of Appellate Procedure
9.020(h)(3), the court does not lose jurisdiction over a pending
motion to withdraw plea after sentencing where a notice of appeal
is filed or otherwise instituted after the motion was filed and
remained pending. In those cases, the notice of appeal is to be
treated as prematurely filed and the appeal held in abeyance until
the filing of a signed, written order disposing of the pending
motion. See Fla.R.App.P. 9.020(h)(3); Sharp v. State, 884 So.2d 510
(Fla. 2 DCA 2004)(finding trial court had jurisdiction to dispose
of motion to withdraw guilty plea filed before notice of appeal);
see also, Luckett v. State, 56 So. 3d 914, 914-15 (Fla. 2d DCA
2011); Clemons v. State, 3 So.3d 364, 365-66 (Fla. 2d DCA 2009) (?A
timely motion to withdraw plea delays rendition of a defendant's
judgment and sentence until the trial court files a signed, written
order disposing of the motion.”); Gray v. State, 198 So.3d 780 (Fla.
4 DCA 2016)(where three motions to withdraw plea were filed, but
only one ruled upon, the judgment and sentence had not been rendered
under Rule 9.020(i) because the other two motions remained pending).
As applied here, contrary to petitioner's argument, the trial
court had jurisdiction to rule on the motion to withdraw guilty plea
which was filed before petitioner's pro se notice of appeal. See
Kegler v. State, 46 So.3d 1061, 1062 (Fla. 2d DCA 2010); Applegate
v. State, 23 So.3d 211, 212 (Fla. 2d DCA 2009). And despite being
represented by counsel at the time petitioner filed his motion, his
pro se pleading could not be stricken as a nullity because he was
44

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 45 of 90

also arguing therein that there existed an actual conflict of
interest with counsel which resulted in the plea not being knowing
and voluntary. See Sheppard v. State, 17 So.3d 275, 277 (Fla. 2009).
Moreover, it is evident from the record that, the pro se notice of
appeal

filed

did

not

signify

that

petitioner

was

waiving

or

otherwise abandoning the counseled motion to withdraw plea. See
Thompson v. State, 50 So.3d 1208, 1211 (Fla. 4th DCA 2010). In any
event, petitioner ultimately allowed his pro se appeal to be
dismissed for failure to pay the filing fee. (See DE#11-2:Ex.16).
Accordingly, the petitioner's argument here, even though it is
procedurally defaulted, it is also devoid of merit. The petitioner
has not demonstrated that the claim is either meritorious or
substantial sufficient to overcome the procedural default. Thus,
under either a de novo review here or applying the procedural
default, this claim warrants no federal habeas corpus relief.
In related claim 2, petitioner asserts that he was denied the
right to appointment of conflict free counsel to assist him in
preparing, filing, and then arguing a proper motion to withdraw his
guilty plea. (DE#1:8; DE#4:4). Petitioner relies upon the August 27,
2010 status hearing transcript summarized previously in this Report
in relation to claim 1 above. He misquotes the record, believing
that proceeding to have been an ?evidentiary hearing,” when in fact,
it was merely a status hearing, where argument was entertained
regarding

the

petitioner's

counseled

motion.

Petitioner's

representation in this habeas proceeding that he was never afforded
an opportunity to decide whether or not to proceed to trial or
withdraw his motion borders on the perjurious and is belied by the
record. The petitioner was, in fact, afforded an opportunity to
determine whether he wanted to proceed to trial or not, and the
petitioner insisted he wanted to go to trial.
45

(DE#11-2:Ex.14:53-

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 46 of 90

54). Petitioner suggests that he was not afforded an opportunity to
?reflect” and/or otherwise ?decide” whether to seek correction of
his sentence or withdrawal of his plea. Regardless, petitioner at
no time, even after the prosecution advised the court that it would
be amended the charging instrument, indicated or otherwise advised
the court that he would rather not go forward with a trial, and
would be withdrawing his motion to withdraw his guilty plea, much
less that he wanted to pursue the filing of a Rule 3.800 motion to
correct illegal sentence.
When

the

identical

claim

was

raised

in

the

Rule

3.850

proceeding, it was rejected by the trial court, based on the
prosecution's

response

thereto,

which

argued

after

applicable Florida law, as follows:
...Defendant's claim fails because he was well
aware that, upon the State's amendment of the
information to charge aggravated battery, he
faced a maximum fifteen year sentence as a
Prison Releasee Reoffender. Defendant cannot
show that the outcome of the proceeding would
have been different....
In this case, the Court did
evidentiary hearing to determine
grant or deny Defendant's motion
his plea. Thus, the appointment
free counsel was not necessary.

not hold an
whether to
to withdraw
of conflict

Defendant requested that his plea be
withdrawn so that he could have the chance of
an acquittal at trial....The Court granted
Defendant's request for a jury trial without
holding an evidentiary hearing or ruling upon
the allegations of coercion on the part of
defense counsel....
More importantly, Defendant was advised
during the hearing on the motion to withdraw
his plea that if he was permitted to withdraw
46

citing

to

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 47 of 90

his plea, he could face anywhere from five to
fifteen years' imprisonment....Defendant was
well aware that by withdrawal of his plea and
the accompanying two year sentence, he would
subject himself to a more serious aggravated
battery charge....
Accordingly, Defendant was well aware of
the possible fifteen year sentence if Defendant
was
given
leave
to
withdraw
his
plea....Defendant was clearly aware of the
potential sentence and sought instead to gamble
at a trial where he faced an increased
aggravated battery charge and imprisonment for
fifteen years if he lost.
(DE#11-3:Exs.44:101-103).
The denial of the claim was subsequently affirmed on appeal in
a decision without written opinion. Tuomi v. State, 166 So.3d 801
(Fla. 4 DCA 2015); (DE#11-3:Ex.50).
Independent review of the record confirms that the state's
response, as narrated above, and as adopted by the trial court, and
then affirmed on appeal, was not error. The court did not hold an
evidentiary hearing on the petitioner's counseled motion. Once
petitioner indicated he wanted to proceed to trial, and after the
prosecution agreed it would be amenable to vacatur of the plea and
proceeding to trial, the court granted petitioner's motion. Now, in
hindsight, petitioner suggests that had he had a conflict free
counsel appointed prior to that hearing, he would not have sought
withdrawal of his guilty plea, and newly appointed counsel would
have been able to renegotiate an even better plea offer and sentence
through the filing of a proper Rule 3.800 motion to correct illegal
sentence. (DE#15:19). The first part of petitioner's claim is
patently frivolous. As borne out by the record, petitioner had
previously filed his own pro se motion to withdraw his guilty plea.
47

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 48 of 90

He has not demonstrated here that but for the court failing to
appoint new counsel for the status hearing, the petitioner would not
have withdrawn his plea of guilty. His after-the-fact representation
are incredulous and rejected as disingenuous.
In Florida, to prove an ineffectiveness claim premised on an
alleged conflict of interest, a defendant must establish that an
actual

conflict

of

interest

adversely

affected

his

lawyer’s

performance. Herring v. State, 730 So.2d 1264 (Fla.1998). A lawyer
suffers from an actual conflict only when he or she actively
represents conflicting interests. Id. To demonstrate an actual
conflict, a defendant must identify specific evidence in the record
that suggests that his or her interests were impaired or compromised
for the benefit of a lawyer or another party. Id. No such showing
has been made here.
While it is true that at the August 2010 status hearing,
defense counsel indicated that the petitioner had accused the
defense of coercing him into accepting a plea, it is also evident
if the court intended to proceed with an evidentiary hearing,
counsel was going to call a third party who was present during the
plea discussions to demonstrate the absence of any undue influence
or coercion. Petitioner maintained that the conflict arose because
the defense had permitted him to plead guilty based on an incorrect
scoresheet. (DE#11-2:Ex.14). In response, both the prosecution and
defense counsel admitted to the court that the scoresheet was
incorrect, but ultimately this was of no consequence because the
prosecution's
sentence,

offer

regardless

required
of

the

petitioner

to

serve

a

24-month

scoresheet

determination.

(Id.).

Moreover, at the time, the petitioner was aware that he faced a 5year term of imprisonment on the charged offense. (Id.).

48

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 49 of 90

Federal law also holds that a conflict of interest cannot be
established through hypothesis or speculation,
Novaton, 271 F.3d 968, 1010-1011 (11

th

United States v.

Cir. 2001), citing Cuyler v.

Sullivan, 446 U.S. 335, 348 (1980), United States v. Medel, 592 F.2d
1305 (5 Cir. 1979), but rather requires a showing that counsel
actively represented conflicting interests.
731 F.2d 718 (11 Cir. 1984);

United States v. Ard,

United States v. Panasuk, 693 F.2d

1078 (11 Cir. 1982); accord, United States v. Ettinger, 344 F.3d
1149, 1161 (11th Cir. 2003); Mickens v. Taylor, 535 U.S. 162 (2002);
accord, United States v. Ettinger, 344 F.3d 1149, 1161 (11th Cir.
2003); Hunter v. Secretary, Dept of Corrections, 395 F.3d 1196 (11th
Cir. 2005). A defendant who fails to show both an actual conflict
and an adverse affect is not entitled to relief. United States v.
Novaton, 271 F.3d 968, 1010 (11 Cir. 2001); Burden v. Zant, 24 F.3d
1298, 1305 (11 Cir. 1994).
The Eleventh Circuit has adopted a test to distinguish actual
from potential conflicts, which requires the petitioner to “point
to specific instances in the record to suggest an actual conflict
or

impairment

of

their

interests,

make

a

factual

showing

of

inconsistent interests, and demonstrate that the attorney made a
choice between possible alternative courses of action, such as
eliciting (or failing to elicit) evidence helpful to one client but
harmful to the other. If he did not make such a choice, the conflict
remained hypothetical.” Barham v. United States, 724 F.2d 1529, 1532
(11th Cir.), cert. den’d, 467 U.S. 1230 (1984); see also, Porter v.
Wainwright,

805

F.2d

930,

939-40

(11th

Cir.

1986);

see

e.g.,

Turnquest v. Wainwright, 651 F.2d 331, 333 (5th Cir. 1981); Freund
v. Butterworth, 165 F.3d 839, 859 (11th Cir. 1999), quoting, Smith
v. White, 815 F.2d 1401, 1405 (11th Cir. 1987).
been made here.

49

No such showing has

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 50 of 90

It is true that a movant need not show that the result of the
proceeding
interest,

would
only

have

that

been

the

different

conflict

had

without
some

the

conflict

adverse

effect

of
on

counsel’s performance. Strickland, 466 U.S. at 694. To prove an
adverse effect, a defendant must: 1) “point to some plausible
alternative

defense

strategy

or

tactic”

that

might

have

been

pursued, 2) “demonstrate that the alternative strategy or tactic was
reasonable”18 under the facts in his case, and 3) “show some link
between

the

actual

conflict

and

the

decision

to

forgo

the

alternative strategy of defense.”19 Novaton, supra at 1011, citing
Freund v. Butterworth, 165 F.3d 839, 860 (11 Cir. 1999) (en banc).
In the absence of a showing of an “adverse effect,” prejudice is not
presumed to flow from a conflict of interest. Id.
Here, petitioner has not demonstrated that an actual conflict
exists, much less that he was adversely affected thereby. His
allegations that counsel was operating under an actual conflict of
interest at the status hearing is too speculative and insufficient
to warrant relief on this claim. Regardless, since the petitioner's
motion was granted and trial scheduled, counsel was discharged from
the case, and new counsel appointed. Under the totality of the
circumstances present here, petitioner has not demonstrated that his
constitutional rights were violated nor that the state court erred
in rejecting this claim. Therefore, it should not be disturbed here.
Williams v. Taylor, supra.

18

Because prejudice is presumed under Strickland, 466 U.S. at 692, the
movant “‘need not show that the defense would necessarily have been successful
if [the alternative strategy or tactic] had been used,’ rather he only need prove
that the alternative ‘possessed sufficient substance to be a viable
alternative.’” Freund, 165 F.2d at 960, citing, United States v. Fahey, 769 F.2d
829, 836 (1st Cir. 1985).
19

In other words, he must establish that the alternative defense was
inherently in conflict with or not undertaken due to the attorney’s other
loyalties or interests. Novaton, supra at 1011, citing, Freund, 165 F.3d at 860.

50

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 51 of 90

In claim 3, petitioner asserts that his constitutional rights
were violated when the trial court failed to conduct an adequate
Faretta hearing to ensure that movant's waiver of his right to
counsel was knowing and voluntary. (DE#1:10; DE#4:12).
In Florida, when a defendant requests his appointed counsel be
removed for incompetence, “the trial judge should make a sufficient
inquiry of the defendant and his appointed counsel to determine
whether ... there is reasonable cause to believe that the court
appointed counsel is not rendering effective assistance to the
defendant.” Nelson v. State, 274 So.2d 256, 258–59 (Fla. 1973).
While the counseled motion was anything but clear, it is undisputed
from review of the August 2010 transcript that a conflict arose
between counsel and the petitioner concerning the voluntariness of
petitioner's plea and the advice provided by counsel in support
thereof.
During the status hearing on the motion, defense counsel
indicated that if the court were inclined to have an evidentiary
hearing on whether to grant the motion, that it should appoint new
counsel because petitioner had raised the allegation that defense
had coerced or otherwise forced him to accept the prosecution's plea
offer which was predicated on an incorrect sentencing scoresheet.
At that time, counsel did not raise the issue of discharging
counsel, nor did the court conduct an evidentiary hearing on the
motion. As previously noted in this Report, after hearing from the
petitioner directly and the prosecution, the court simply allowed
counsel to withdraw, granted the petitioner's motion, and then set
the case for trial. Thus, in that instance, petitioner has not
demonstrated that the court erred in failing to ensure counsel was
discharged prior to the status conference commencing. It is also
well settled that an indigent defendant is constitutionally entitled
51

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 52 of 90

to appointed counsel, not the appointed counsel of his choice. Wheat
v. United States, 486 U.S. 153, 159, 108 S.Ct. 1692, 100 L.Ed.2d 140
(1988). Here, there was no basis to support the discharge of counsel
at the status conference stage.
The petitioner claims here, as he did in his Rule 3.850 motion
in the state forum, that the court failed to conduct an adequate
Faretta inquiry at the time it held a hearing on his counseled
motion to withdraw. The Sixth Amendment provides that all criminal
defendants are entitled to the assistance of counsel. U.S. Const.
Amend. VI. A defendant can waive the fundamental right to counsel
if he does so “knowingly and intelligently.” Johnson v. Zerbst, 304
U.S. 458, 464-465 (1938); see Faretta v. California, 422 U.S. 806,
833 (1975); Edwards v. Arizona, 451 U.S. 477, 482, 101 S.Ct. 1880,
68 L.Ed.2d 378 (1981). Although a defendant need not have the skill
and experience of a lawyer in order competently and intelligently
to choose self-representation, “he should be made aware of the
dangers and disadvantages of self-representation, so that the record
will establish that he knows what he is doing and his choice is made
with eyes open.” Faretta, 422 U.S. at 835.
The Eleventh Circuit has interpreted Faretta to mean a trial
court should hold a hearing to advise a criminal defendant on the
dangers of proceeding pro se and make an explicit finding that he
has chosen to represent himself with adequate knowledge of the
possible consequences. See Fitzpatrick v. Wainwright, 800 F.2d 1057,
1065 (11th Cir. 1986); see also Fla.R.Cr.P. 3.111(d). The failure
to hold a Faretta hearing is not error, however, if the record shows
the

defendant

knowingly

and

voluntarily

elected

to

represent

himself. See Nelson v. Alabama, 292 F.3d 1291 (11th Cir. 2002); see
also Waterhouse v. State, 596 So. 2d 1008 (Fla. 1992). Waiver
presents a mixed question of law and fact. Brewer v. Williams, 430
52

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 53 of 90

U.S. 387, 403 (1977).
As will be recalled, the petitioner filed a pro se waiver of
representation

by

counsel,

pursuant

to

Fla.R.Cr.P.

3.160(e),

indicating he was currently not represented by counsel, waived his
right to counsel, and informed the court that he intended to
represent himself at trial. (DE#11-2:Ex.22:82). He then filed a pro
se amendment thereto, advising the court that he does not suffer
from any severe mental illness and is competent to conduct the trial
proceedings himself. (Id.:83).
In the interim, following the August 2010 status conference,
Samuel T. Marshall, II, Esquire, filed a motion to withdraw as
counsel, stating that he received an order in October 2010 granting
a motion to withdraw and appointing him to represent the petitioner.
However, counsel indicated that he is not on the court-appointed
list of attorneys available to represent indigent defendants where
the Office of Regional Conflict Counsel is unable to represent
defendants. Therefore, he declined the appointment and requested
that the court enter an order withdrawing him from representation
in

the

case.

Marshall's

(DE#11-2:Ex.23).

motion

was

On

granted,

November

and

the

17,

court

2010,
noted

Attorney
that

the

petitioner will represent himself, as requested. (DE#11-2:Ex.24).
The Order also set the case for trial commencing on December 13,
2010 at 8:30 a.m. (Id.).
Review of the December 14, 2010 transcript reveals that the
court did, in fact, conducted a limited Faretta inquiry prior jury
selection. (DE#11-2:Ex.25:T.92-93). At that time, the court again
reminded the petitioner that it needed to remind him about his
choice and the ramifications of proceeding without a lawyer. (T.92).
The following colloquy was conducted on the record:
53

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 54 of 90

COURT:

Right. Yeah, so a lawyer, as you know, has the
experience and knowledge of the entire process,
and the lawyer's job would be to argue for your
side and present your best legal argument. Jury
-- what we're about to start is the jury
qualification procedure, and they usually have
-- the lawyers usually have a desire or a
thought about -- the good ones, anyway, they
have what type of person they think would be
best for your case, so you -- that's what you
should think about, and we're going to ask
these jurors questions about what they do for
a living and what -- you know, that sort of
thing, personal information about them and go
over some legal principles with them. So when
I'm questioning them and when the other lawyer
is questioning them, you should be looking at
them and deciding, ?is this a juror that I
think would be sympathetic to my situation or
not,” and -- you know, so you will have the
ability to -- for six people, have the ability
to say, ?I don't want this person, that
person,” six of them, you get six peremptory
challenges, we call them. Do you understand?

DEF.:

Okay.

COURT:

In other words, you can bump six of them. Do
you have a list there of their names?

DEF.:

Yes.

COURT:

Okay. You can write little information about
them, whether you like them -- you know, ?This
is a plus person for me or a minus,” on that
sheet. A lawyer would know how to do that; a
lawyer can also, of course, get witnesses here
and question the witnesses and question other
people and give you some advice about whether
they think you should testify or not. They know
when -- they have the rules of evidence, and so
they know when to object and that's sort of
thing.

DEF.:

Right.

COURT:

So that's the -- you know, we lawyers -- I'm a
lawyer too, obviously -- we always think it's
54

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 55 of 90

a bad idea not to have a lawyer, but you have
convinced me previously that you know about the
system somewhat and that you are sincere in
your desire to do it yourself, so -- and we
fired your lawyer, I guess, at your request,
but -- so I just want to make sure you're ready
to continue.
DEF.:

Yes.

COURT:

Okay, you are?

DEF.:

I would just like to know exactly what I'm
charged with today....

(DE#11-2:Ex.25:91-94:T.16-19).
Given the colloquy above, it is clear that the petitioner
eloquently conveyed his sincere desire for self representation, and
as a result, was granted the request, but not before the court again
ensured that the petitioner was ready and able to continue pro se.
(Id.:94:T.19). Further, as previously narrated in this Report, after
claiming that the Office of Regional Counsel coerced him into
changing his plea, and the court allowed that counsel to withdraw,
it

then

appointed

Samuel

Marshall,

Esquire

to

represent

the

petitioner. (DE#11-2:Ex.19:71). However, petitioner then filed a pro
se letter/motion seeking to discharge that attorney on the basis
that counsel was not competent or experienced enough to defend him.
(DE#11-2:Exs.20-22). Thereafter, petitioner filed a handwritten, pro
se waiver of representation of counsel, indicating that he had
diligently investigated his case, does not have currently counsel
appointed to represent him, and waives the right to counsel. (DE#112:Ex.21). He further advised the court that he is or will be
prepared for trial in December 2010, and will represent himself.
(Id.). Petitioner then amended the waiver only to add that he does
not suffer from a severe mental illness and is competent to conduct

55

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 56 of 90

his trial. (DE#11-2:Ex.22). Attorney Marshall also filed a motion
to withdraw, and by court order entered on November 17, 2010,20 the
motion was granted and petitioner was permitted to proceed pro se,
as requested. (Id.).
Petitioner's waiver of counsel was unwavering, knowing and
intelligent.

Petitioner

sought

discharge

of

counsel

and

then

voluntarily filed the waiver of his right to counsel. He was
cautioned against proceeding pro se. He was aware that he was
entitled to conflict free counsel, but not counsel of choice. Here,
petitioner has not shown a due process violation arising from the
court's failure to renew or otherwise conduct a more exhaustive
Faretta inquiry. To the contrary, the fact that he proceeded pro se
was of his own doing, and not that of the court.
To the extent petitioner suggests here, as he did in the Rule
3.850 proceeding, that the trial court should have determined his
competence to proceed, this claim likewise fails. Failure to comply
with

Florida’s

procedural

rules

regarding

competency

hearings

implicates state law and is not cognizable on habeas review. See
Fla. R. Crim. P. 3.210, 3.211; Tejada v. Dugger, 941 F.2d 1551 (11th
Cir. 1991) (quoting Carrizales v. Wainwright, 699 F.2d 1053 (11th
Cir. 1983)(questions of state law and procedure “rarely raise issues
of federal constitutional significance. [A] state's interpretation
of its own laws provides no basis for federal habeas corpus relief,
since

no

question

of

a

constitutional

nature

is

involved.”).

Petitioner here has not implicated any federal constitutional right.

20
The state court docket in Palm Beach County, Circuit Court, case no.
2009CF015311AMB, reveals that on that day, a court event was held at 8:30 a.m.
on counsel's motion to withdraw. Although the respondent indicates no transcript
of the hearing was ever transcribed, and need not be provided here, it is clear
given the entire history of this case, that the petitioner was well aware of his
constitutional right to have an attorney assist in his defense. However, the
petitioner knowingly and voluntarily waived that right.

56

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 57 of 90

Regardless, the Due Process Clause of the Fourteenth Amendment
prohibits states from trying and convicting mentally incompetent
defendants. James v. Singletary, 957 F.2d 1562, 1569-70 (11th Cir.
1992) (citing Pate v. Robinson, 383 U.S. 375, 384-86, 86 S.Ct. 836,
841-42, 15 L.Ed.2d 815 (1966); Dusky v. U.S., 362 U.S. 402 (1960)).
The test for determining competence to stand trial is “whether [a
defendant] has sufficient present ability to consult with his lawyer
with a reasonable degree of rational understanding-and whether he
has a rational as well as factual understanding of the proceedings
against him.” Dusky, 362 U.S. at 402.
Although petitioner attempts to suggest here that he had
competency

issues

that

should

have

first

been

addressed

and

evaluated, there was never any question that petitioner was anything
other than fully competent. He never requested a competency hearing.
He always engaged the court appropriately, albeit, if at times
argumentative, and was aware of the nature of the proceedings, so
that none of the judges before whom he appeared would have had any
cause to examine his competence sua sponte. See, e.g., Tiller v.
Esposito, 911 F.2d 575, 576 (11th Cir. 1990) (a court has a duty to
hold a competency hearing sua sponte “if there is reasonable cause
to believe that a defendant may presently be suffering from a mental
disease or defect rendering him mentally incompetent to the extent
that he is unable to understand the nature and consequences of the
proceedings against him or to assist properly in his defense.”).
Accordingly, any suggestion that the Florida courts should have
examined petitioner's competency to proceed is meritless and should
be rejected.
On the

record before this court, where it is clear the

petitioner was quite competent to proceed, and freely and knowingly
waived the right to counsel, the dictates of Faretta are satisfied,
57

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 58 of 90

the inquiry is over, and the defendant may proceed unrepresented.
See Muehlman v. State, 3 So.3d 1149, 1150 (Fla. 2009)(quoting State
v. Bowen, 698 So.2d 248, 251 (Fla. 1997)). When that occurs, ?[t]he
court may not inquire further into whether the defendant 'could
provide himself with a substantively qualitative defense,' for it
is within the defendant's right, if he or she so chooses, to sit
mute and mount no defense at all.” Id. (citation omitted)(quoting
Bowen, 698 So.2d at 251). Moreover, ?[w]here a competent defendant
'knowingly and intelligently' waives the right to counsel and
proceeds unrepresented 'with and intelligently' waives the right to
counsel and proceeds unrepresented 'with eyes open,' he or she ipso
facto receives a 'fair trial' for right to counsel purposes.” Id.
(quoting Potts v. State, 718 So.2d 757, 759-60 (Fla. 1998)).
The record further confirms that the petitioner in the state
forum appeared lucid, articulate, and had a clear understanding of
what he was facing. The court advised him of the penalties he faced
if convicted and the petitioner rejected and insisted that a 2-year
plea offer be vacated simply because his scoresheet contained an
error, despite being cautioned that he faced, without the PRRA
enhancement, a 5-year statutory maximum if convicted at trial.
Nothing of record in the state forum or this habeas proceeding
suggests that petitioner was suffering from a mental illness to the
point where he was not competent to conduct trial proceedings
himself. See Muehleman v. State, 3 So.3d 1149, 1160 (Fla. 200); see
also, Potts v. State, 718 So.2d 757 (Fla. 1998)(rejecting claim
petitioner was not informed of the dangers and disadvantages of
self-representation). To the contrary, it is evidence from the
record that he was able to select a jury of his choosing, and then
attempt to sway the jury's sympathy.
Under the totality of the circumstances present here, the
58

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 59 of 90

rejection of this claim on direct appeal was not an unreasonable
application of controlling federal constitutional principles. The
state court decision rejecting the claim is entitled to deference
and should not be disturbed here. Williams v. Taylor, supra.
In claim 4, petitioner asserts that the prosecution failed to
disclose

favorable

exculpatory

evidence

to

the

defense

by

withholding the medical records of the victim documenting the
severity or lack thereof of the victim's injuries, in violation of
Brady

v.

Maryland,

373

U.S.

83

(1963).

(DE#1:12;

DE#4:15).

Petitioner suggests that the prosecution withheld this evidence, and
merely represented that the victim's injuries were ?moderate,” in
order

to

however,

support
claims

aggravating

the
that

factor

amended
this

of

the

charges.

(DE#4:16).

Petitioner,

evidence

would

have

negated

the

amended

charge

and

rebutted

the

prosecution's representations regarding the nature and extent of the
victim's injuries. (Id.).
?In Brady, the Supreme Court placed an affirmative duty on the
prosecution to reveal any 'evidence [that] is material either to
guilt or to punishment, irrespective of the good faith or bad faith
of the prosecution.'” Haliburton v. Sec'y, Fla. Dep't of Corr's, 342
F.3d 1233, 1238 (11 Cir. 2003)(quoting Brady v. Maryland, 373 U.S.
at 87, 83 S.Ct. 1194). The affirmative duty includes ?[i]mpeachment
evidence ... as well as exculpatory evidence.” United States v.
Bagley, 473 U.S. 667, 676, 105 S.Ct. 3375, 87 L.Ed.2d 481 (1985).
The prosecution, however, is not required under Brady to ?deliver
[its] entire file to defense counsel, but only [that it] disclose”
material evidence. Id. at 675, 105 S.Ct. 3375 (footnote omitted).
Under Brady, the evidence is material ?if there is a reasonable
probability that, had the evidence been disclosed to the defense,
the result of the proceeding would have been different.” Id. at 682,
59

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 60 of 90

105 S.Ct. 3375.
In the state forum, the petitioner raised the claim by way of
prosecutorial

misconduct

for

withholding

exculpatory

Brady

materials. (DE#11-2:Ex.43:79). There, petitioner argued that the
medical records were required by the defense to ascertain the nature
and extent of the victim's purported injuries, but the state failed
and/or otherwise refused to produce them, thereby preventing the
defense from utilizing them at trial. (DE#11-3:Ex.43:79).
The trial court denied relief based on the state's response
thereto,

which

argued

in

relevant

part,

that

the

claim

was

procedurally barred, and even if not barred, failed on the merits,
because

the

petitioner

had

also

not

demonstrated

how

such

information would have altered the outcome of the trial. (DE#113:Ex.44:105-106;
argued

no

Brady

DE#11-3:Ex.45).
violation

Alternatively,

occurred.

(Id.).

the

respondent

According

to

the

respondent, by petitioner's own admissions, as reflected in his pro
se filings seeking to proceed pro se, he represented to the court
that he had diligently investigated and prepared his case for trial,
and that he is or otherwise would be ready for trial by December
2010. (Id.). The respondent further argued that no Brady violation
occurred where the petitioner, aware of the existence of the medical
records from the victim's deposition, could have issued a subpoena
requesting copies of them prior to trial, but chose not do so.
(Id.). The foregoing rejection of the claim was summarily affirmed
on appeal in a decision without written opinion. Tuomi v. State, 166
So.3d 801 (Fla. 4 DCA 2015)(table).
First, it is worth noting that petitioner has not demonstrated
either in the state forum or this habeas proceeding that the subject
medical/hospital records were exculpatory in nature or otherwise
60

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 61 of 90

rebutted the state's argument that the victim's injuries were
moderate. To the contrary, the victim testified she was severely
beaten by the petitioner; and, as a result, received knots to her
head

and

a

laceration

to

her

face,

requiring

ten

stitches.

Petitioner has not shown here or in the state forum that the
laceration or injuries she sustained were not caused by or as a
result of the petitioner's beating. Thus, even if the prosecution
withheld the medical records documenting the nature and extent of
the victim's injuries, the suppression did not result in any
prejudice to the defense.
The petitioner, who represented himself at trial, crossexamined the victim, Susan, regarding the events that evening. In
fact, during cross-examination, petitioner conceded that he did, in
fact,

strike

her,

and

apologized

for

doing

so.

(DE#11-

2:Ex.25:T.141). Petitioner conceded that the victim had received a
?cut,” and then asked if she had been in much pain, to which the
victim indicated that she had. (Id.:T.141-42). Petitioner was aware
that the victim had been taken to the hospital for injuries because
he asked her during cross-examination how long she had been in the
hospital the night of the incident. (Id.:T.142). Susan responded
that it was approximately three to four hours. (Id.). He then asked
the victim to confirm whether or not she required ten stitches for
a laceration to her left eye, to which the victim responded that she
did. (T.142).
After the victim indicated there were tests done at the
hospital, petitioner then testified that he did not have a copy of
the medical records, to which the prosecution objected, indicating
that

the

petitioner

was

?testifying.”

(Id.:T.143).

The

court

overruled the objection, but did advise the petitioner to ?just ask
the question, if you have one.” (Id.). After asking the victim what
61

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 62 of 90

the final diagnosis on discharge was, she said it was ten stitches
above her eye. (Id.). Petitioner attempted to establish through
cross-examination that he was apologetic for the incident, and that
he never planned or otherwise intended to harm or otherwise cause
that injury to Susan. (Id.:T.143-144). After the victim responded
that she believed he had every intention of killing her, petitioner
responded,

?Well,

I

really

--

I

don't

think

that

would

have

happened, ma'am, but again it's a blur to me, most of it. I'm
hanging on right now by a thread trying to remember, you know; I
learned what I know from--.” (T.144-45). The court then interjected,
asking the petitioner whether he had any more questions of the
witness, to which the petitioner responded that he did. (T.145).
Even if as suggested by the petitioner here, the prosecution
failed to provide him with the victim's medical/hospital records,
and further assuming, without deciding, that those documents could
have been utilized by the defense during cross-examination of the
victim, the petitioner has not demonstrated here nor in the state
forum that such evidence would have been favorable to the defense.
To the contrary, it may have been more detrimental, reinforcing the
victim's testimony regarding the nature and extent of the injury she
received as a result of the petitioner's beating. Consequently,
petitioner has not demonstrated a due process violation resulting
from the prosecution's purported failure to turn over exculpatory
evidence. Thus, the rejection of this claim in the state forum
should not be disturbed here. Williams v. Taylor, supra.
In claim 5, petitioner asserts that the trial court's comment
to the jury that the petitioner chose not to testify violated
petitioner's constitutional rights. (DE#1:13; DE#4:17). In related
claim

6,

petitioner

asserts

that

the

prosecution

engaged

in

prosecutorial misconduct during closing argument by commenting on
62

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 63 of 90

petitioner's

failure

to

testify

on

his

own

behalf

at

trial.

(DE#1:15; DE#4:19). In support thereof, petitioner explains that
during his closing argument, the prosecution objected, stating that
the petitioner was arguing facts not in evidence, because the
petitioner was explaining to the jury that he became homeless
because his stepfather was always picking fights with petitioner.
(DE#4:17). After the court advised the jury to disregard the
foregoing, petitioner claims the prosecution erroneously indicated
that the explanation the petitioner gave during closing regarding
how the victim received the laceration to her eye was not evidence
because the petitioner had chosen not to testify on his own behalf
and he could not do so during closing. (Id.:18).
In the Rule 3.850 proceeding, where the subject claim was
raised, petitioner claimed that the prosecution, during closing
argument, deliberately commented on the petitioner's failure to
testify,

and

the

court

compounded

the

error

by

providing

an

erroneous instruction that again commented on the petitioner's
silence, without giving a subsequent curative instruction. (DE#113:Ex.43:79,88-89). Petitioner conceded in his post-conviction motion
that he did not preserve the error for review, having failed to
object to the court's erroneous instruction. (Id.).
The trial court denied relief on these interrelated claims,
based on the state's response thereto, which argued in relevant
part, that the claim was barred from review in the Rule 3.850
proceeding because the petitioner had not preserved the issue for
review below, and because the issue had been raised and rejected on
direct appeal. (DE#11-3:Ex.44:106-110; DE#11-3:Ex.45). That denial
was subsequently per curiam affirmed on appeal in a decision without
written

opinion.

Tuomi

v.

State,

2015)(table).
63

166

So.3d

801

(Fla.

4

DCA

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 64 of 90

Careful review of the trial court record reveals that during
closing argument, the petitioner first explained to the jury the
elements necessary to support the charged offense of aggravated
battery. (DE#11-2:Ex.25:T.183-189). Petitioner first conceded that
he intentionally touched or struck the victim against her will.
(Id.:T.183).

Regarding

the

next

element,

that

petitioner

intentionally and knowingly caused the victim great bodily harm,
permanent disfigurement, or permanent disability, the petitioner
argued

there

was

no

permanent

disability,

nor

was

there

any

permanent disfigurement because the purported cut above the victim's
eye was not even visible. (Id.:183-84). Petitioner suggested that
the only issue remaining was whether he caused the victim great
bodily harm. (Id.:184). In that regard, petitioner provided the jury
with what he believed that term meant, which included a ?serious
physical impairment of the human bodily, especially bodily injury
that

creates

a

substantial

risk

of

death...”

(Id.:185).

The

petitioner provided the jury with a definition of ?bodily injury,”
which

included

thereafter,

a

?cut”

petitioner

or

?abrasion.”

attempted

to

show

(T.188).

Immediately

the

a

jury

criminal

punishment code scoresheet, to which the prosecution objected,
arguing facts not in evidence. (T.188-189). The court advised
petitioner that the scoresheet ?has nothing to do with this case.”
(T.189). Petitioner responded, ?Okay, All right....” (T.189).
Petitioner then continued with his closing, honing in on the
fact that the victim's laceration was not moderate, but could be
?slight,” and suggested:
It's a cut; there was broken glass at the
scene. Nobody knew-I don't even know -- it
looked like a large cut to me. I couldn't say
for sure that she did or didn't fall down when
I hit her, but she did admit that she feel down
when I hit here, and there was broken glass
64

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 65 of 90

everywhere on the scene. Now, I can't say that
I didn't cause that injury by hitting her with
my closed fist, but still it's not an injury
that constitutes great bodily harm, all right,
I believe. And we are talking about a very
serious charge here of aggravated battery that
the state is accusing me of, and it is
punishable by a lot of time. So, you know, I
met these people; I was homeless on the beach
doing the best I could. I had stayed at Dubois
Beach in Jupiter because I feel that that's a
safe place for, you know, for me as a homeless
person; my family lived close by although I
couldn't stay at home because my stepfather was
always picking fights with me--...
(T.190-191).
Again, the prosecution objected to the foregoing on the basis
that petitioner was arguing facts not in evidence. (T.191). The
court responded:
Okay, sustained. Disregard these last comments
about where he stayed and his family and all
that. If he wanted to be a witness, he could
have been a witness; he's decided--...not to be
a witness, so we have to--...we have to decide
the case based on the evidence that's presented
here.
(T.191-192).
Petitioner responded, explaining to the court that he had lived
on the beach as a homeless person when he met the victim. (T.192).
However, the court again indicated that it was sustaining the
prosecution's objection, and reminded the petitioner ?not to talk
about that.” (T.192).

65

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 66 of 90

During rebuttal closing, the prosecution explained to the jury
that

the

court

would

be

instructing

them

that,

to

prove

as

petitioner suggested during closing the offense of simple battery,
as a lesser included offense of felony battery, they would have to
find that petitioner intentionally touched or struck or caused
bodily harm to the victim. (T.194). In other words, respondent
explained that if the petitioner walked up to the victim and touched
her against her will that's technically a battery because proof of
harm is not required. (T.194). The prosecution then countered that
a simple shoulder touch was not what occurred in this case. (T.194).
The prosecution directed the jury to later examine the evidence,
including the photos of the victims showing the laceration that
required ten stitches. (T.194-95). After further narrating the
evidence adduced at trial, the prosecution also advised the jury
that the judge would be instructing them not to base their verdict
on

?bias,

prejudice,

or

sympathy

for

anybody,

including

the

defendant,” but rather to examine the facts of the case itself.
(T.196).
Next, the prosecution argued the legal difference between
felony battery and aggravated battery, suggesting that evidence
contradicts petitioner's speculative suggestion that the victim
received the eye laceration because there was glass strewn about the
floor. (T.196-197). He reminded the jury that evidence established
that once the victim fell to the ground, the petitioner continued
pummeling her. (Id.). Thereafter, in pertinent part, the prosecution
reminded the jury:
Nothing Mr. Tuomi [petitioner] said today was
evidence. He had the opportunity to get up
there and be a witness; instead he came in the
opening statement and the closing argument and
said all of these tings, but the bottom line is
it's not evidence. The only evidence that you
66

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 67 of 90

can consider is what came from that stand, and
there is no evidence that she accidentally got
cut on a piece of glass after he broke the
table; there is only evidence that he was on
top of her, punching her in the head so many
times she couldn't count, and he -- and she
thought he was going to kill her, and he didn't
think that it was going to get this far because
she's a homeless bitch, but you know what? She
came in here and she told her story and she
stayed strong, and for that you should find him
guilty of aggravated battery. Thank you.
(T.196-97). Thereafter, the court instructed the jury in relevant
part on the law they were to follow, including the fact that they
were

to

consider

only

the

evidence

introduced

at

trial

in

determining whether the state had proven the charged offense beyond
a reasonable doubt. (T.200-01). The court further instructed the
jury that the defendant exercised his fundamental right by choosing
not to be a witness in this case, and that they ?must not view this
as an admission of guilt or be influenced in any way by his
decision.” (T.201). The court further stated that ?[N]o juror should
ever be concerned that the defendant did or did not take the witness
stand to give testimony in the case.” (T.201). The court also
instructed the jury that its verdict must be decided based only on
the evidence it has heard from the testimony of the witnesses and
have seen in the form of exhibits in evidence, and considered
together with the instructions provided by the court. (T.201-202).
They were further reminded that ?the lawyers are not on trial, and
your feelings about them should not influence your decision. (T.20203). More importantly, the court also instructed the jury that it
was exclusively their job to decide the verdict, and that the court
could not ?participate in that decision in any way, so please
disregard anything I may have said that made you think I preferred
one verdict over another. It's up to you to decide what evidence is
reliable...” (T.203).
67

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 68 of 90

It is axiomatic that a defendant has the constitutional right
to decline to testify against himself in a criminal proceeding. See
U.S. Const.

Amend.

V

(?No

person...shall

be

compelled

in

any

criminal case to be a witness against himself.”); Fla. Const. art.
I, §9 (?No person shall be ...compelled in any criminal matter to be
a witness against oneself.”); see also, State v. Kinchen, 490 So.2d
2, 22 (Fla. 1985)(?The right to stand mute at trial is protected by
both our state and federal constitutions.”).
?[A] comment on the right to remain silent strikes at the heart
of our criminal justice system.” Ventura v. State, 29 So.3d 1086,
1088

(Fla.

2010).

Thus,

any

statement

that

focuses

on

the

defendant's failure to testify is ?serious error” because it can
result in a ?substantial likelihood that meaningful comments will
vitiate the right to a fair trial.” State v. DiGuilio, 491 So.2d
1129, 1136 (Fla. 1986). In Griffin v. California, 380 U.S. 609
(1965), the United States Supreme Court made clear that:
the Fifth Amendment, in its direct application
to the Federal Government, and in its bearing
on the States by reason of the Fourteenth
Amendment, forbids either comment by the
prosecution on the accused's silence or
instructions by the court that such silence is
evidence of guilt.
Griffin v. California, 380 U.S. at 615. When determining whether an
impermissible comment on a defendant’s right to remain silent has
occurred,

federal

circumstances

and

courts
evaluate

must

consider

whether

the

the

totality

remark

is

of

the

"manifestly

intended" by the prosecutor or “was of such a character” that it
"would naturally and necessarily be understood by the jury" as a
comment on the defendant's silence.

Matire v. Wainwright, 811 F.2d

1430 (11 Cir. 1987), citing United States v. Vera, 701 F.2d 1349 (11

68

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 69 of 90

Cir. 1983), also citing United States v. Forrest, 620 F.2d 446,
455-56 (5 Cir. 1980); See also Baxter v. Thomas 45 F.3d 1501 (11
Cir. 1995); United States v. Beale, 921 F.2d 1412 (11 Cir. 1991).
In Lakeside v. Oregon, 435 U.S. 333 (1978), the United States
Supreme Court further made clear that the purpose of the ?judge's
instruction that the jury must draw no adverse inferences of any
kind

from

the

defendant's

exercise

of

his

privilege

not

to

testify...is to remove from the jury's deliberations any influence
of unspoken adverse inferences.” Lakeside v. Oregon, 435 U.S. 333,
339, 98 S.Ct. 1091, 55 L.Ed.2d 319 (1978). ?Without the cautionary
instruction, the jurors were free to infer or speculate that a
defendant who does not testify must surely be guilty, otherwise he
would take the stand on his own behalf.” Andrews v. State, 443 So.2d
78, 84-85 (Fla. 1983)(concluding that court's comment on defendant's
right not to testify, which was not requested by the defendant and
did not include a cautionary instruction, was reversible error).
If some other explanation for the remark is equally plausible,
the Court cannot find that counsel 'manifestly intended' to comment
on the defendant's failure to testify.

United States v. Swindall,

971 F.2d 1531 (11th Cir.1992)(citing, Samuels v. United States, 398
F.2d 964, 968 (5 Cir. 1968)(Court declined to reverse when finding
it "very possible" that the prosecutor's statement was "merely
inadvertent")); United States v. Ward, 552 F.2d 1080, 1083 (5 Cir.
1977)(approving a prosecutor's remarks when they were "more likely"
intended to “properly refer to the defendants' failure to produce
evidence of any kind

to rebut the inference of knowledge that

naturally follows from the possession of recently stolen property”
than to comment on the defendants' failure to take the stand).
Here, careful review of the record reveals that the comments
69

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 70 of 90

under attack were not of such a character that it would naturally
and necessarily be understood by the jury as a comment on the
defendant's silence. In fact, the now challenged prosecutor’s
comments during closing argument, while inartful, summarized the
facts

adduced

at

trial,

and

were

in

direct

response

to

the

representations of facts not in evidence that petitioner made during
closing. Moreover, it is evident that the fundamental fairness of
the movant’s trial was not affected, given the more than sufficient
evidence implicating the petitioner in the offense. See Donnelly v.
DeChristoforo, 416 U.S. 637, 642-45 (1974); Hall v. Wainwright, 733
F.2d 766, 733 (11 Cir. 1984); Hance v. Zant, 696 F.2d 940 (11 Cir.),
cert. denied, 463 U.S. 1210 (1983); Williams v. Weldon, 826 F.2d
1018, 1023 (11 Cir.), cert. denied, 485 U.S. 964 (1988).
The

petitioner's

challenge

to

the

cautionary

instruction

provided by the court regarding petitioner's constitutional right
not

to

testify

was

proper.

Further,

petitioner

also

has

not

demonstrated that the prosecution's comments had a substantial and
injurious effect on the jury. See Gay v. Sec'y, Fla. Dep't of
Corr's, 523 Fed.Appx. 560, 563 (11th Cir. 2013). At the conclusion
of argument by the parties, the court instructed the jury that it
could not view petitioner's failure to testify on his own behalf as
an admission of guilt nor that it should in any way influence their
verdict. Thus, even if the prosecution's comments were error, the
court's curative instruction was proper and cured any such error.
It is worth noting that during his closing, petitioner attempted to
put facts before the jury that were not brought out by the state
during its case-in-chief, nor during petitioner's cross-examination
of the state witnesses. Thus, the prosecution properly argued that
petitioner was attempting to argue facts that were not in evidence.
It does not appear, as suggested by petitioner, that the comments
were

directly

made

to

sway

the
70

jury

adversely

against

the

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 71 of 90

petitioner. Consequently, the rejection of the claims in the state
forum, especially on the alternative basis that the evidence was
more than sufficient to support the charged offense of conviction,
was neither contrary to nor an unreasonable application of federal
law,

and

it

should

thus

not

be

disturbed

here.

28

U.S.C.

§2254(d)(1); Williams v. Taylor, 529 U.S. 362 (2000). Relief is
therefore not warranted on claims 5 and 6.
In claim 7, petitioner asserts that he was denied effective
assistance of counsel, where his lawyer failed to assist the
petitioner in preparing a motion for new trial. (DE#1:16; DE#4:20).
Here, he maintains counsel should have prepared a ?more legally
sophisticated motion” establishing that the prosecution had not met
its burden of demonstrating that the victim sustained ?great bodily
injury,” as opposed to, ?slight” or ?moderate” injury. (DE#4:21). In
related claim 8, petitioner asserts that his due process rights were
violated when the court denied petitioner's motion for new trial
without a hearing or without providing petitioner the assistance of
counsel. (DE#1:18; DE#4:22).
Careful review of the record reveals that immediately following
the jury's verdict, finding petitioner guilty of aggravated battery,
as charged in the Second Amended Information, the court advised
petitioner that he believed petitioner should have an attorney
assist him with this next phase of his case, and reminded petitioner
that his prior counsel, whom petitioner had discharged, Attorney
Pagan,

was

?very

good.”

(DE#11-2:Ex.25:T.214-15).

Petitioner

responded, stating ?[I]'m regretful now for what I've done because
I've done opened up a can of worms I can't close now.” (Id.:T.215).
Petitioner then indicated he wanted counsel appointed, but not from
the public defender's office, and as a result, the court appointed
Attorney Elizabeth Gardner, to represent the petitioner post-trial.
71

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 72 of 90

(T.215-218). The petitioner turned to the prosecution and stated
that he gave it the best he could because he did not and still does
not believe he is guilty of aggravated battery. (T.218).
Approximately a week later, although he was aware that he was
currently represented by Attorney Gardner, petitioner filed his own
pro se motion for new trial, arguing that the verdict was contrary
to the weight of the evidence, and raised numerous other claims of
trial court error. (DE#11-2:Ex.27). Before a ruling was had on that
motion, petitioner then filed a motion requesting the discharge of
Attorney Gardner, on the basis that she was refusing to handle his
motion for new trial. (DE#11-2:Ex.28). On March 14, 2011, the court
conducted a Nelson21 hearing, at which time petitioner renewed his
request,

explaining

that

counsel

refused

to

assist,

adopt

or

otherwise file a motion for new trial, so he had been forced to file
a

bar

complaint

against

her.

(DE#11-2:Ex.29:346,349,352-53).

Petitioner then advised the court that he wanted counsel discharged
and wanted the Public Defender to be appointed to represent him.
(T.352-53). The court then granted Attorney Gardner's ore tenus
motion to withdraw, and an order was then entered appointing the
Public Defender. (T.354; DE#11-3:Ex.30).
When the claim was raised in the Rule 3.850 proceeding, it was
denied by the trial court, based on the state's response thereto,
which argued, in pertinent part, that petitioner was complaining
Attorney Gardner and the Public Defender were both ineffective for
failing to assist him in the preparation and litigation of a post
trial motion for new trial. (DE#11-3:Ex.44:110-111). After citing
to the appropriate federal Strickland standard, the prosecution
argued that the petitioner failed to assert a facially valid claim

21

Nelson v. State, 274 So.2d 256 (Fla. 4 DCA 1973).

72

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 73 of 90

because it did not discuss how counsel performed deficiently, nor
how he was prejudiced. (Id.). In other words, petitioner had not
shown that the result of his post trial motions would have been
different, but for counsel's ineffectiveness. (Id.). That denial was
subsequently per curiam affirmed in a decision without written
opinion. Tuomi v. State, 166 So.3d 801 (Fla. 4 DCA 2015)(table).
Here, as in the state forum, petitioner has failed to meet his
burden of proof. He has not demonstrated that had counsel filed
and/or otherwise assisted in amending the motion for new trial to
raise the arguments set forth herein, that such a motion would have
been granted, especially given the evidence adduced at trial. As
will be recalled, the trial court judge who presided over the trial
also considered petitioner's motion for new trial and amendment
thereto, when it entered its order denying the motion. (DE#113:Ex.31). Consequently, the petitioner cannot satisfy either the
deficient

performance

or

prejudice

prong

under

Strickland.

Therefore, the state court rejection of the claim, as noted above,
was not contrary to federal constitutional principles, and should
not be disturbed here. Williams v. Taylor, supra.
To the extent the petitioner argues in claim 8 that the court
erred in failing to hold an evidentiary hearing on his motion for
new trial, that claim warrants no federal habeas corpus relief
because a state’s interpretation of its own laws or rules provides
no basis for federal habeas corpus relief since no question of a
constitutional nature is involved. The federal courts must defer to
a state court’s interpretation of its own rules of evidence and
procedure. Machin v Wainwright, 758 F.2d 1431 1433 (11 Cir. 1985);
Jones v. Goodwin, 982 F.2d 464, 471 (11th Cir. 1993); see also
Krasnow v. Navarro, 909 F.2d 451, 452 (11th Cir. 1990); Carrizales
v. Wainwright, 699 F.2d 1053 (11th Cir. 1983).
73

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 74 of 90

The federal habeas corpus court will be bound by the Florida
court's interpretation of its own laws unless that interpretation
breaches a federal constitutional mandate. McCoy v. Newsome, 953
F.2d 1252, 1264 (11th

Cir.), cert. den’d, 504 U.S. 944 (1992).

State courts are the ultimate expositors of their own state's laws,
and federal courts entertaining petitions for writs of habeas corpus
are bound by the construction placed on a state's criminal statutes
by the courts of the state except in extreme cases. Mendiola v.
Estelle, 635 F.2d 487, 489 (5th Cir. Unit A 1981). Thus, the
petitioner’s claim that the state court erred when it denied his
motion to amend his Rule 3.850 post-conviction motion is based on
state law issues which is not cognizable here.
To the extent Petitioner argues the state court's denial of his
motion for new trial deprived him of due process of law, such a
claim also does not present an issue that is cognizable on federal
habeas review. Likewise, petitioner has not demonstrated that his
due process rights were violated because the court failed to hold
a hearing on these or any of the claims raised herein. In the
Eleventh Circuit, a §2254 court is not an appropriate forum for a
prisoner to challenge the process afforded him in state collateral
proceedings because such a claim represents an attack on postconviction proceedings. See e.g., Quince v. Crosby, 360 F.3d 1259,
1261-62 (11th Cir. 2004)(affirming district court's denial of habeas
relief based on state court judge's refusal to recuse himself from
the Rule 3.850 hearing, explaining “while habeas relief is available
to

address

defects

in

a

criminal

defendant's

conviction

and

sentence, an alleged defect in a collateral proceeding does not
state a basis for habeas relief.”); Spradley v. Dugger, 825 F.2d
1566, 1568 (11th Cir. 1987)(per curiam) (concluding §2254 claim that
petitioner's

due

process

rights

were

violated

when

state

post-conviction court held no evidentiary hearing and failed to
74

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 75 of 90

attach appropriate portions of record to its opinion “goes to issues
unrelated to the cause of petitioner's detention [and] does not
state a basis for habeas relief”).
In claim 9, petitioner asserts that the trial court erred in
denying defense counsel's motion to withdraw after it was previously
established that a conflict pre-existed prior to Jenny Lancaster
being appointed to represent the petitioner at sentencing. (DE#1:19;
DE#4:24). According to petitioner, at a March 2011 hearing post
trial, and then again in June 2011, the court failed to ascertain
whether the Public Defender's Office still had a conflict, or
whether alternate counsel should be appointed. (DE#4:25). It appears
from the state court docket that, in fact, a court event was held
on June 15, 2011 at 8:30 a.m. on a motion to withdraw. The
respondent argues in correctly here that the claim herein refers
only to Attorney Gardner and not Attorney Lancaster. That argument,
however, is not well taken.
To the contrary, as is evident from the above, the petitioner
was clearly arguing his claim in relation to Attorney Lancaster in
his federal habeas corpus proceeding, as well as, in the state
forum. In fact, in his Rule 3.850 motion, petitioner argued in
ground eight that the court erred in denying Attorney Lancaster's
motion to withdraw and for the appointment of conflict free counsel,
despite there being a clear conflict. (DE#11-3:Ex.43:80). The trial
court denied relief, based on the state's response thereto, which
argued in pertinent part, as follows:
...Initially, the State notes that Defendant is
attacking the Court's failure to remove APD
Lancaster, Defendant is procedurally barred
from raising this claim because he could have
appealed the Court's denial of the motion to
withdraw, but did not....
75

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 76 of 90

At the hearing on Defendant's motion to
withdraw his guilty plea, Defendant alleged
that he only pled because SPD Pagan advised him
that if he did not, he could face a harsher
sentence. [Tr. at 7] There was no conflict that
?actually affected” Defendant's representation.
This was sage advice. At that same hearing, the
State
placed
Defendant
on
notice
that
withdrawal of his guilty plea exposed him to a
fifteen year sentence as a Prison Releasee
Reoffender
under
a
forthcoming
amended
information charging aggravated battery. [Tr.
at 8].
...Granting or denying AFPD Lancaster's motion
had
no
effect
on
Defendant's
sentence.
Defendant has not ?show[n] that a conflict of
interest actually affected the adequacy of
representation.” Cuyler, 446 U.S. at 349. As
forewarned, this case played out exactly as all
the parties, the APD, the Court, and the State
advised that it would. Defendant knowingly
chose to disregard the warnings. This claim is
subject to summary denial.
(DE#11-3:Ex.44:111-112). That denial was subsequently per curiam
affirmed in a decision without written opinion. Tuomi v. State, 166
So.3d 801 (Fla. 4 DCA 2015)(table).
Review of the record reveals that at the March 2011 hearing,
when the court allowed Attorney Gardner to withdraw as counsel, the
petitioner therein agreed to have the Public Defender re-appointed
to represent him moving forward with post-conviction matters on his
case. (DE#11-2:Ex.29:T.352-54). On June 14, 2011, Assistant Public
Defender

Jenny

Lancaster

filed

a

motion

to

withdraw

and

for

appointment of conflict free counsel, explaining that the Office of
the Public Defender had previously been granted leave to withdraw
in this case because the petitioner maintained that a conflict had
arisen on the basis that the assistant public defender at the time
had misadvised him to enter into a plea based on an incorrect
76

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 77 of 90

sentencing scoresheet. (DE#11-3:Ex.33). The current assistant public
defender explained that the court had re-appointed her office
because petitioner had stated, following the discharge of yet
another lawyer, Attorney Gardner, that he had no problems with the
Office of the Public Defender, nor with its appointment to represent
him moving forward. (Id.). According to petitioner, the motion was
denied. The respondent, despite this court's show cause order, has
failed to provide this court with all documents relevant to the
issues before this court, as instructed, including the state trial
docket, and as pertinent here, the event form, as noted thereon,
which would confirm whether the petitioner's representation in this
regard.
?Where a constitutional right to counsel exists, [the Supreme
Court's] Sixth Amendment cases hold that there is a correlative
right to representation that is free from conflicts of interest.”
See United States v. Mounier, 307 Fed. Appx. 379, 380 (11th Cir.
2009)(quoting Wood v. Georgia, 450 U.S. 261, 271, 101 S.Ct. 1097,
1103, 67 L.Ed.2d 220 (1981)).
Further, the Supreme Court has also held that, ?[i]n order to
establish a violation of the Sixth Amendment, a defendant who raised
no objection at trial must demonstrate that an actual conflict of
interest adversely affected his lawyer's performance.” Id. (quoting
Cuyler v. Sullivan, 446 U.S. 335, 348, 100 S.Ct. 1708, 1718, 64
L.Ed.2d 333 (1980)). While ?a defendant who shows that a conflict of
interest actually affected his representation need not demonstrate
prejudice in order to obtain relief,” he is not entitled to relief
unless he shows both: (1) an actual conflict; and (2) an adverse
affect. Id. (quoting United States v. Novaton, 271 F.3d 968, 1010
(11th Cir. 2001)). ?An 'actual conflict' of interest occurs when a
lawyer has 'inconsistent interests,'” however, ?a speculative or
77

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 78 of 90

merely hypothetical conflict of interest does not yield a Sixth
Amendment violation.” Id. (quoting United States v. Novaton, 271
F.3d at 1010-11 (quotations omitted). To prove an adverse effect,
the defendant must show that: (1) the defense attorney could have
pursued a plausible alternative strategy; (2) this alternative
strategy was reasonable; and (3) the alternative strategy was not
followed

because

it

conflicted

with

the

attorney's

external

loyalties. Id.
Here, as will be recalled, the petitioner raised no objection
to having the Public Defender's Office appointed to represent him
post-trial. The fact that Attorney Lancaster filed the motion
anyway, based on a prior purported conflict, does not mean that an
actual conflict existed, much less that the petitioner was adversely
affected

therefrom.

Given

the

detailed

history

of

this

case,

together with the petitioner's own admissions in the state forum,
it

is

clear

that

prior

Assistant

Public

Defender

Pagan,

who

represented petitioner during the change of plea proceeding was not
ineffective. While the prosecution and Pagan both admittedly advised
the court that at the time

the parties were negotiating the

petitioner's plea, immediately before jury selection, which resulted
in the imposition of a 2-year sentence, when petitioner faced a 5year term of imprisonment, neither realized that the scoresheet used
at

the

time

contained

incorrect

information.

However,

the

prosecution assured the court that the scoresheet did not factor
into the negotiations because the petitioner was going to receive
prison time, due to the nature of the injuries to the victim.
Petitioner latched onto the concession regarding the error in
the scoresheet to argue that his plea was not knowing and voluntary.
The petitioner would have preferred for the state to have vacated
the sentence and imposed a term of imprisonment less than the 24
78

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 79 of 90

months received. However, the prosecution clearly indicated at the
time if the petitioner persisted in challenging the lawfulness of
the

plea,

they

would

be

amending

the

information,

given

petitioner's reoffender status, which would require a

the

15-year

minimum term of imprisonment if convicted at trial. Despite being
advised of the foregoing in detail, the petitioner insisted that he
wanted to proceed to trial. Therefore, the court granted his
request. The advice provided during those proceedings by counsel was
not deficient. Petitioner, however insisted on taking his case to
trial.
It will be recalled that following his conviction, petitioner
agreed to the re-appointment of the Officer of the Public Defender,
after his request to discharge a private appointed counsel was again
granted. He has not shown here that an actual conflict existed
arising from counsel's representation post-conviction nor that even
if such a conflict did exist, that he was adversely affected. Thus,
petitioner cannot prevail on this claim. The court's denial of
counsel's motion to withdraw in the state forum should not be
disturbed here. Relief is therefore not warranted on this basis.
In claim 10, petitioner asserts that there was insufficient
evidence to support petitioner's conviction for aggravated battery.
(DE#1:20; DE#4:25). Petitioner maintains there was no evidence
adduced at trial that he intentionally caused the victim great
bodily harm. (DE#4:25). As cause for failing to properly raise the
claim, petitioner relies on Martinez v. Ryan, supra. for the
proposition

that

his

claim

is

?substantial”

so

it

should

be

addressed on the merits here. DE#4:28).
In Florida, the courts do not grant a motion for judgment of
acquittal unless the evidence is such that no view which the jury
79

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 80 of 90

may lawfully take of it favorable to the opposite party can be
sustained under the law. See Holloman v. State, ___ So.3d ___, 2017
WL 626656 (Fla. 4 DCA Feb. 15, 2017)(quoting Pagan v. State, 830
So.2d 792, 803 (Fla. 2002)); see also, Starks v. State,

So.3d

, 2017 WL 1067815 (Fla. 3 DCA Mar. 22, 2017)(quoting Lynch v.
State, 293 So.2d 44, 45 (Fla. 1974)(stating that “[w]here there is
room for a difference of opinion between reasonable men as to the
proof

or

facts

from

which

an

ultimate

fact

is

sought

to

be

established, or where there is room for such differences as to the
inferences which might be drawn from conceded facts, the court
should submit the case to the jury for their finding, as it is their
conclusion, in such cases, that should prevail and not primarily the
views of the judge.”)). A defendant, in moving for a judgment of
acquittal, admits not only the facts stated in the evidence admitted
at trial, but also admits every conclusion favorable to the adverse
party that a jury might fairly and reasonably infer from the
evidence. See Lynch v. State, 293 So.2d at 45.
When the issue was raised in the Rule 3.850 proceeding, it was
denied by the trial court, based on the state's response thereto,
which

argued

that

the

claim

was

procedurally

barred

because

petitioner did not move for a judgment of acquittal at the close of
the

evidence

at

trial,

thereby

waiving

the

issue.

(DE#11-

3:Ex.44:112-113). The state also argued that petitioner did not
appeal the denial of his motion for new trial, and therefore, the
claim remained procedurally defaulted. (Id.). Alternatively, the
state argued the conviction was amply supported by the evidence.
(Id.:113-114). The foregoing findings and rejection of the claim was
summarily affirmed on appeal in a decision without written opinion.
Tuomi v. State, 166 So.3d 801 (Fla. 4 DCA 2015)(table).
Independent review of the record reveals that the victim
80

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 81 of 90

testified the petitioner repeatedly beat her in and about the face
and head, approximately ?20 times maybe, if not more.” (DE#112:Ex.25:T.132). The attack left knots on the victim's head and a
visible laceration requiring ten stitches above one of the victim's
eyes. (Id.:T.132,134,143,147). As a result, the victim, covered in
blood,

was

transported

to

the

hospital

for

emergency

medical

treatment, and incurred more than $6,000 in medical bills as a
result of the petitioner's beating. (Id.:T.134,142). When the state
rested, the court advised petitioner that ?it's customary for the
defense to make a motion at this time for a directed verdict, in
other words to ask the judge to enter a verdict in their favor
because they don't think the evidence is sufficient to find them
guilty, or sometimes they have other reasons.” (Id.:T.162). When the
court asked petitioner whether he wanted to make such a motion, the
pro se

petitioner

responded,

?Not

at

this

time,

Your

Honor.”

(Id.:T.162). Consequently, the respondent is correct that the
petitioner failed to preserve the issue below. Even if, as suggested
by petitioner, he had been appointed counsel to represent him in the
Rule 3.850 proceeding, he would still not prevail on the claim as
he did not preserve it at trial.
Regardless, on the merits, the petitioner still is not entitled
to the relief requested. In order to determine whether the state
court's rejection of the claim was proper, review of the sufficiency
of the evidence is warranted. On a petition for federal habeas
corpus relief, the standard for review of the sufficiency of the
evidence is whether the evidence presented, viewed in a light most
favorable to the state, would have permitted a rational trier of
fact to find the petitioner guilty of the crimes charged beyond a

81

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 82 of 90

reasonable

doubt.22

Jackson

v. Virginia,

443

U.S.

307

(1979);

Simmons v. State, 934 So.2d 1100, 111 (Fla. 2006)(quoting Bradley
v. State, 787 So.2d 732, 738 (Fla. 2001)). This familiar standard
gives full play to the responsibility of the jury to resolve
conflicts

in

testimony,

to

weigh

the

evidence,

and

to

draw

reasonable inferences from basic facts to ultimate facts. See Wilcox
v. Ford, 813 F.2d 1140, 1143 (11 Cir. 1987)(citing Jackson v.
Virginia, 443 U.S. at 326).
The Jackson standard for the sufficiency of the evidence is
equally applicable to direct or circumstantial evidence. Jackson v.
Virginia, 443 U.S. at 320; United States v. Peddle, 821 F.2d 1521,
1525 (11 Cir. 1987). The simple fact that the evidence gives some
support to the defendant's theory of innocence does not warrant the
grant of habeas relief. Wilcox v. Ford, 813 F.2d at 1143 (citing
Martin v. State of Alabama, 730 F.2d 721, 724 (11 Cir. 1984)). It
is

not

necessary

that

the

evidence

exclude

every

reasonable

hypothesis except that of guilt. Holland v. United States, 348 U.S.

22

Similarly, in Florida, the test for sufficiency of the evidence is
whether a “rational trier of fact could have found proof of guilt beyond a
reasonable doubt.” Melendez v. State, 498 So.2d 1258, 1261 (Fla. 1986)(citing
Jackson v. Virginia, 443 U.S. 307 (1979)). The courts do not grant a motion for
judgment of acquittal unless the evidence is such that no view which the jury may
lawfully take of it favorable to the opposite party can be sustained under the
law. Lynch v. State, 293 So.2d 44, 45 (Fla. 1974)(stating that “[w]here there is
room for a difference of opinion between reasonable men as to the proof or facts
from which an ultimate fact is sought to be established, or where there is room
for such differences as to the inferences which might be drawn from conceded
facts, the court should submit the case to the jury for their finding, as it is
their conclusion, in such cases, that should prevail and not primarily the views
of the judge.”). A defendant, in moving for a judgment of acquittal, admits not
only the facts stated in the evidence admitted at trial, but also admits every
conclusion favorable to the adverse party that a jury might fairly and reasonably
infer from the evidence. Gant v. State, 640 So.2d 1180, 1181 (Fla. 4 DCA 1994).
It is for the jury to decide what inferences are to be drawn from the facts.
Taylor v. State, 583 So.2d 323, 328 (Fla. 1991). In cases consisting solely of
circumstantial evidence, a motion for judgment of acquittal will be granted if
the state failed to present evidence from which the jury could exclude every
reasonable hypothesis except that of guilt. State v. Law, 559 So.2d 187, 188
(Fla. 1989).

82

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 83 of 90

121, 140 (1954). Under Jackson, federal courts must look to state
law for the substantive elements of the criminal offense, but to
federal law for the determination of whether the evidence was
sufficient under the Due Process Clause. Coleman v. Johnson, 566
U.S. ___, ____, 132 S.Ct. 2060, 2064, 182 L.Ed.2d 978 (2012).
The Due Process Clause of the Fourteenth Amendment requires the
State to prove each element of the offense charged

beyond a

reasonable doubt. Thompson v. Nagle, 118 F.3d 1442, 1448 (11th Cir.
1997) (citing Jackson v. Virginia, 443 U.S. 307, 314 (1979)). In
reviewing

the

sufficiency

of

the

evidence,

all

conflicting

inferences to be drawn from the evidence are presumed to have been
resolved by the jury in favor of the prosecution. Thompson, 118 F.3d
at 1448 (citing Machin v. Wainwright, 758 F.2d 1431, 1435 (11th Cir.
1985)). In Jackson, the Supreme Court ?provides the federal due
process benchmark for evidentiary sufficiency in criminal cases.”
Williams v. Sec'y for Dep't of Corr's, 395 Fed.Appx. 524, 525 (11th
Cir. 2010) (per curiam) (citing Green v. Nelson, 595 F.3d 1245,
1252-53 (11th Cir. 2010)). In accordance with this authority, the
relevant question is whether any rational jury, after viewing the
evidence in the light most favorable to the prosecution, could have
found the essential elements of the charged offense beyond a
reasonable doubt. Jackson, 443 U.S. 319.
Further, in Florida, ?a simple battery becomes an aggravated
battery when a person intentionally or knowingly causes great bodily
harm or uses a deadly weapon.” See McCormick v. City of Fort
Lauderdale, 333 F.3d 1234, 1239 n.5 (11th Cir. 2003) (quotations
omitted). Florida Statutes §784.045 provides that ?a person commits
aggravated battery who, in committing battery: 1. intentionally or
knowingly

causes

great

bodily

harm,

permanent

disability,

or

permanent disfigurement; or 2. uses a deadly weapon.” See Fla. Stat.
83

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 84 of 90

§784.045(1)(a) (capitalization omitted).
As will be recalled, the state charged petitioner by Second
Amended

Information

with

aggravated

battery,

in

violation

of

Fla.Stat. §784.045(1)(a)1 (Count 1), as follows:
COUNT 1: ANTON ERIC TUOMI on or about December
5, 2009, in the County of Palm Beach and State
of Florida, did actually and intentionally or
knowingly caused great bodily harm, permanent
disability, or permanent disfigurement to SUSAN
RENE BLACK, contrary to Florida Statute
784.045(1)(a)1. (2 DEG FEL).
(DE#11-3:Ex.17).
The prosecution was thus required to present evidence of a
touching or striking of the victim against her will, and in the
course thereof, that the petitioner intentionally or knowingly
caused

great

bodily

harm,

permanent

disability

or

permanent

disfigurement.
At trial, the court instructed the jury as to the elements of
aggravated battery, that the state has to provide the following two
elements beyond a reasonable doubt:
the first element is simply a definition of
battery, and that is that Anton Eric Tuomi
intentionally touched or struck Susan Black
against her will; and number two, the second
element--...in
committing
the
battery,
intentionally or knowingly caused Susan Black
great bodily harm, or permanent disability, or
permanent disfigurement....
(DE#11-3:Ex.25:T.197-198).

84

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 85 of 90

As previously discussed in this Report, the record reflects
that the petitioner repeatedly beat the victim, hitting in and about
the face and head, which resulted in a laceration that required ten
stitches. The jury was shown pictures of the victim's injuries,
heard the victim testify, and was able to observe whether or not a
visible scar still remained. Thus, after review of the Amended
Information, along with the jury charge, together with the evidence
adduced at trial, it is clear that there was more than sufficient
evidence to support the jury's conviction. For federal sufficiency
review,

?the

relevant

question

is

whether,

after

viewing

the

evidence in the light most favorable to the prosecution, any
rational trier of fact could have found the essential elements of
the crime beyond a reasonable doubt.” Jackson, 443 U.S. at 319, 99
S.Ct. at 2789 (quotation omitted).
The Supreme Court in Coleman v. Johnson explained that there
are two layers of judicial deference in federal habeas proceedings.
Coleman v. Johnson, 566 U.S. at ____, 132 S.Ct. at 2062. First, a
reviewing court on direct appeal may only set aside the jury's
verdict for insufficient evidence if no rational trier of fact could
have agreed with the jury. Id. Second, a federal habeas court may
only overturn the state court decision if it was objectively
unreasonable. Id. The Court went on to explain that the only
question for the reviewing state court under Jackson is ?whether the
finding was so insupportable as to fall below the threshold of bare
rationality.” Id. at ____, 132 S.Ct. at 2065. Such a determination
is entitled to deference under the AEDPA. Id.
Given

the

evidence

adduced

at

trial,

contrary

to

the

petitioner's arguments here and in the state forum, he cannot
demonstrate that there was insufficient evidence to support his
aggravated battery conviction. Based on all the facts presented, a
85

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 86 of 90

rational trier of fact could have found the essential elements of
the offense of aggravated battery were met by the prosecution,
beyond a reasonable doubt. See Jackson, 443 U.S. at 319, 99 S.Ct.
at 2789. This Court must defer to the jury's judgment as to the
weight and credibility of the evidence. See Wilcox v. Ford, 813 F.2d
1140, 1143 (11 Cir. 1987), citing, Jackson v. Virginia, 443 U.S. at
326.

Even

if

there

was

some

evidence

which

gave

support

to

petitioner’s theory of defense, such a fact does not warrant habeas
corpus relief. See Gibson v. Collins, 947 F.2d 780, 783 (5 Cir.
1991), cert. denied, 506 U.S. 833 (1992). Relief is therefore not
warranted on this claim.
B.

State Habeas Corpus Petition Claims

In claim 11, petitioner asserts that he was denied effective
assistance of appellate counsel, where his lawyer failed to assign
as error on appeal the trial court's error in failing to appoint
conflict free counsel to represent the petitioner at a critical
stage of the proceeding. (DE#1:22; DE#4:28). The claim was presented
by petitioner in his state habeas corpus petition, which was
summarily rejected by the appellate court on the merits. (DE#113:Exs.55-56).
As will be recalled, in claim 2, as discussed above, the
petitioner raised the substantive issue underlying this ineffective
assistance of appellate counsel claim. Because the arguments raised
in

support

thereof

warrant

no

federal

habeas

corpus

relief,

petitioner cannot demonstrate deficient performance or prejudice
under Strickland arising from counsel's failure to raise the issue
of trial court error in failing to appoint conflict free counsel on
direct appeal. See Matire v. Wainwright, 811 F.2d 1430, 1435 (11
Cir. 1987). Thus, the rejection of this claim in the state habeas
86

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 87 of 90

corpus proceeding was not error. Relief is not warranted on this
basis.
In claim 12, petitioner asserts that he was denied effective
assistance of appellate counsel, where his lawyer failed to assign
as error on appeal the trial court's error in permitting petitioner
to proceed pro se without conducting an adequate Faretta inquiry
prior to vacating petitioner's plea and setting the case for trial.
(DE#1:23; DE#4:33). This claim was raised by petitioner in his state
habeas corpus petition, which was denied by the appellate court on
the merits. (DE#11-3:Exs.55-56).
As will be recalled, in claim 3, petitioner raised as a
separate, independent claim, the substantive issue underlying this
ineffective assistance of counsel claim. Since the petitioner's
arguments in support of claim 3 are devoid of merit, the petitioner
cannot demonstrate deficient performance or prejudice arising from
counsel's failure to pursue the claim on appeal, as suggested.
Matire v. Wainwright, 811 F.2d 1430, 1435 (11 Cir. 1987). Therefore,
the rejection of the claim in the state habeas corpus proceeding is
entitled to deference and should not be disturbed here. Williams v.
Taylor, supra. Relief is therefore not warranted on the ground
presented here.
Under

the

totality

of

the

circumstances

present

here,

petitioner has not demonstrated that his constitutional rights were
violated, much less that counsel was deficient under Strickland for
any of the reasons stated, or that petitioner suffered prejudice
arising

therefrom. Consequently, relief must be denied. Thus,

whether or not any of the grounds raised herein were properly
exhausted in the state forum, since they it fails on the merits, the
rejection or lack thereof should not be altered here. Williams v.
87

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 88 of 90

Taylor,

supra.

In

conclusion,

the

record

reflects

that

the

petitioner received vigorous and able representation more than
adequate under the Sixth Amendment standard. See Strickland v.
Washington, 466 U.S. 668 (1984).
Finally, this court has considered all of the petitioner’s
claims for relief, and arguments in support thereof. See Dupree v.
Warden, 715 F.3d 1295 (11th Cir. 2013)(citing Clisby v. Jones, 960
F.2d 925 (11th Cir. 1992)). For all of his claims, petitioner has
failed to demonstrate how the state courts’ denial of his claims,
to the extent they were considered on the merits in the state forum,
were contrary to, or the product of an unreasonable application of,
clearly established federal law. To the extent they were not
considered in the state forum, and a de novo review of the claim
conducted here, as discussed in this Report, none of the claims
individually, nor the claims cumulatively, warrant relief. Thus, to
the extent a precise argument, subsumed within any of the foregoing
grounds for relief, was not specifically addressed herein or in the
state forum, all arguments and claims were considered and found to
be devoid of merit, even if not discussed in detail herein.
VIII.

Evidentiary Hearing

Petitioner’s request for an evidentiary hearing must be denied.
To

determine

whether

an

evidentiary

hearing

is

needed,

`The

pertinent facts of this case are fully developed in the record
before

the

Court.

Because

this

Court

can

“adequately

assess

[Petitioner's] claim[s] without further factual development,” Turner
v. Crosby, 339 F.3d 1247, 1275 (11th Cir. 2003), cert. den’d, 541
U.S. 1034 (2004), an evidentiary hearing is not warranted.

88

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 89 of 90

IX.

As

amended

Certificate of Appealability

effective

December

1,

2009,

§2254

Rule

11(a)

provides that “[t]he district court must issue or deny a certificate
of appealability when it enters a final order adverse to the
applicant,” and if a certificate is issued “the court must state the
specific issue or issues that satisfy the showing required by 28
U.S.C. §2253(c)(2).” A timely notice of appeal must still be filed,
even if the court issues a certificate of appealability. Rules
Governing §2254 Proceedings, Rule 11(b), 28 U.S.C. foll. §2254.
After review of the record, petitioner is not entitled to a
certificate of appealability. “A certificate of appealability may
issue ... only if the applicant has made a substantial showing of
the denial of a constitutional right.” 28 U.S.C. §2253(c)(2). To
merit a certificate of appealability, Petitioner must show that
reasonable jurists would find debatable both (1) the merits of the
underlying claims and (2) the procedural issues he seeks to raise.
Slack v. McDaniel, 529 U.S. 473, 478, 120 S.Ct. 1595, 146 L.Ed.2d
542 (2000). See also Eagle v. Linahan, 279 F.3d 926, 935 (11th Cir.
2001).

Because

the

claims

raised

are

clearly

without

merit,

petitioner cannot satisfy the Slack test. Slack, 529 U.S. at 484.
As now provided by Rules Governing §2254 Proceedings, Rule
11(a), 28 U.S.C. foll. §2254: “[B]efore entering the final order,
the court may direct the parties to submit arguments on whether a
certificate

should

issue.”

If

there

is

an

objection

to

this

recommendation by either party, that party may bring this argument
to the attention of the district judge in the objections permitted
to this report and recommendation.

89

Case 9:16-cv-80542-RLR Document 19 Entered on FLSD Docket 04/12/2017 Page 90 of 90

X. Conclusion
Based upon the foregoing, it is recommended that the federal
habeas petition be DENIED on the merits; that a certificate of
appealability be DENIED; and, the case be closed.
Objections to this report may be filed with the District Judge
within fourteen days of receipt of a copy of the report.
SIGNED this 12th day of April, 2017.

UNITED STATES MAGISTRATE JUDGE
cc:

Anton Tuomi, Pro Se
DC#C-B03766
Everglades Correctional Institution
Inmate Mail/Parcels
1599 SW 187th Avenue
Miami, FL 33194
Luke Robert Napodano, Ass't Atty Gen'l
Office of the Attorney General
1515 North Flagler Drive, Suite 900
West Palm Beach, FL 33401
Email: luke.napodano@myfloridalegal.com

90

